<html>
<title> - NOMINATIONS OF HON. JORGE LUIS ALONSO, NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF ILLINOIS; JOHN ROBERT BLAKEY, NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF ILLINOIS; HON. AMOS L. MAZZANT, III, NOMINEE TO BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF TEXAS; ROBERT LEE PITMAN, NOMINEE TO BE DISTRICT JUDGE FOR THE WESTERN DISTRICT OF TEXAS; AND ROBERT WILLIAM SCHROEDER, III, NOMINEE TO BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF TEXAS</title>
<body><pre>[Senate Hearing 113-515, Part 10]
[From the U.S. Government Publishing Office]


                                                 S. Hrg. 113-515, Pt. 10

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

     SEPTEMBER 9, SEPTEMBER 17, NOVEMBER 13, and DECEMBER 10, 2014

                               __________

                           Serial No. J-113-1

                               __________

                                Part 10

                               __________

         Printed for the use of the Committee on the Judiciary
         
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
      
      

         Available via the World Wide Web: http://www.fdsys.gov
                    
                                                            

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-276 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aec9dec1eecddbdddac6cbc2de80cdc1c380">[email&#160;protected]</a>          
         
         
         
         
         

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                       SEPTEMBER 9, 2014, 10 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page
Cornyn, Hon. John, a U.S. Senator from the State of Texas........     3
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1

                               PRESENTER

Kirk, Hon. Mark, a U.S. Senator from the State of Illinois 
  presenting John Robert Blakey, Nominee to be District Judge for 
  the Northern District of Illinois..............................     3

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................    19
Alonso, Hon. Jorge Luis, Nominee to be U.S. District Judge for 
  the Northern District of Illinois..............................     5
    biographical information.....................................    20
Blakey, John Robert, Nominee to be U.S. District Judge for the 
  Northern District of Illinois..................................     6
    biographical information.....................................    73
Mazzant, Hon. Amos L., III, Nominee to be U.S. District Judge for 
  the Eastern District of Texas..................................     6
    biographical information.....................................   128
Pitman, Robert Lee, Nominee to be U.S. District Judge for the 
  Western District of Texas......................................     7
    biographical information.....................................   207
Schroeder, Robert William, III, Nominee to be a U.S. District 
  Judge for the Eastern District of Texas........................     8
    biographical information.....................................   276

                               QUESTIONS

Questions submitted to Hon. Jorge Luis Alonso and John Robert 
  Blakey by Senator Cruz.........................................   337
Questions submitted to Hon. Jorge Luis Alonso by Senator Grassley   317
Questions submitted to John Robert Blakey by Senator Grassley....   321
Questions submitted to Hon. Amos L. Mazzant, III, by Senator 
  Grassley.......................................................   325
Questions submitted to Robert Lee Pitman by Senator Grassley.....   329
Questions submitted to Robert William Schroeder, III, by Senator 
  Grassley.......................................................   333

                                ANSWERS

Responses of Hon. Jorge Luis Alonso to questions submitted by:
    Senator Cruz.................................................   345
    Senator Grassley.............................................   338
Responses of John Robert Blakey to questions submitted by:
    Senator Cruz.................................................   356
    Senator Grassley.............................................   348
Responses of Hon. Amos L. Mazzant, III, to questions submitted by 
  Senator Grassley...............................................   358
Responses of Robert Lee Pitman to questions submitted by Senator 
  Grassley.......................................................   365
Responses of Robert William Schroeder, III, to questions 
  submitted
  by Senator Grassley............................................   372

         LETTER RECEIVED WITH REGARD TO HON. JORGE LUIS ALONSO

American Bar Association, August 5, 2014, letter.................   380

           LETTER RECEIVED WITH REGARD TO JOHN ROBERT BLAKEY

American Bar Association, August 5, 2014, letter.................   382

        LETTER RECEIVED WITH REGARD TO HON. AMOS L. MAZZANT, III

American Bar Association, June 27, 2014, letter..................   384

            LETTER RECEIVED WITH REGARD TO ROBERT LEE PITMAN

American Bar Association, June 27, 2014, letter..................   386

      LETTER RECEIVED WITH REGARD TO ROBERT WILLIAM SCHROEDER, III

American Bar Association, June 27, 2014, letter..................   388

                            C O N T E N T S

                              ----------                              

                     SEPTEMBER 17, 2014, 10:05 A.M.


                     STATEMENT OF COMMITTEE MEMBER

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................   391

                               PRESENTERS

Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
  District of Columbia presenting Amit Priyavadan Mehta, Nominee 
  to be District Judge for the District of Columbia..............   392
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts presenting Allison Dale Burroughs, Nominee to be 
  District Judge for the District of Massachusetts...............   393

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................   405
Burroughs, Allison Dale, Nominee to be U.S. District Judge for 
  the Northern District of Massachusetts.........................   395
    biographical information.....................................   406
Davidson, Jeanne E., Nominee to be Judge of the U.S. Court of 
  International Trade............................................   396
    biographical information.....................................   460
Gilliam, Haywood Stirling, Jr., Nominee to be U.S. District Judge 
  for the Northern District of California........................   397
    biographical information.....................................   514
Mehta, Amit Priyavadan, Nominee to be U.S. District Judge for the 
  District of Columbia...........................................   398
    biographical information.....................................   564

                               QUESTIONS

Questions submitted to Allison Dale Burroughs, Haywood Stirling
  Gilliam, Jr., and Amit Priyavadan Mehta by Senator Cruz........   621
Questions submitted to Allison Dale Burroughs by Senator Grassley   603
Questions submitted to Jeanne E. Davidson by Senator Grassley....   607
    Follow-up questions submitted to Jeanne E. Davidson by 
      Senator Grassley...........................................   617
Questions submitted to Haywood Stirling Gilliam, Jr., by Senator 
  Grassley.......................................................   609
Questions submitted to Amit Priyavadan Mehta by Senator Grassley.   613

                                ANSWERS

Responses of Allison Dale Burroughs to questions submitted by:
    Senator Cruz.................................................   630
    Senator Grassley.............................................   622
Responses of Jeanne E. Davidson to questions submitted by Senator 
  Grassley.......................................................   632
    Responses of Jeanne E. Davidson to follow-up questions 
      submitted by Senator Grassley..............................   637
Responses of Haywood Stirling Gilliam, Jr., to questions 
  submitted by:
    Senator Cruz.................................................   652
    Senator Grassley.............................................   643
Responses of Amit Priyavadan Mehta to questions submitted by:
    Senator Cruz.................................................   662
    Senator Grassley.............................................   655


         LETTER RECEIVED WITH REGARD TO ALLISON DALE BURROUGHS

American Bar Association, August 4, 2014, letter.................   665

           LETTER RECEIVED WITH REGARD TO JEANNE E. DAVIDSON

American Bar Association, August 19, 2014, letter................   667

      LETTER RECEIVED WITH REGARD TO HAYWOOD STIRLING GILLIAM, JR.

American Bar Association, August 19, 2014, letter................   669

          LETTER RECEIVED WITH REGARD TO AMIT PRIYAVADAN MEHTA

American Bar Association, August 4, 2014, letter.................   671

                            C O N T E N T S

                              ----------                              

                     NOVEMBER 13, 2014, 12:21 P.M.

                    STATEMENTS OF COMMITTEE MEMBERS

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......   677
Hirono, Hon. Mazie, a U.S. Senator from the State of Hawaii......   673
    prepared statement...........................................   882

                               PRESENTERS

Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina
  presenting Loretta Copeland Biggs, Nominee to be District Judge 
  for the Middle District of North Carolina......................   673
Hagan, Hon. Kay, a U.S. Senator from the State of North Carolina 
  presenting Loretta Copeland Biggs, Nominee to be District Judge 
  for the Middle
  District of North Carolina.....................................   675

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................   685
Azrack, Hon. Joan Marie, Nominee to be U.S. District Judge for 
  the Eastern District of New York...............................   677
    biographical information.....................................   686
Biggs, Loretta Copeland, Nominee to be U.S. District Judge for 
  the Middle District of North Carolina..........................   678
    biographical information.....................................   747
Botticelli, Michael P., Nominee to be Director of National Drug 
  Control Policy.................................................   679
    biographical information.....................................   868
    prepared statement...........................................   878
Dillon, Elizabeth K., Nominee to be U.S. District Judge for the 
  Western District of Virginia...................................   679
    biographical information.....................................   817

                               QUESTIONS

Questions submitted to Nominees Hon. Joan Marie Azrack, Loretta 
  Copeland Biggs, and Elizabeth K. Dillon by Senator Cruz........   899
Questions submitted to Hon. Joan Marie Azrack by Senator Grassley   884
Questions submitted to Loretta Copeland Biggs by Senator Grassley   888
Questions submitted to Michael P. Botticelli by:
    Senator Feinstein............................................   900
    Senator Grassley.............................................   896
    Senator Hirono...............................................   902
Questions submitted to Elizabeth K. Dillon by Senator Grassley...   892

                                ANSWERS

Responses of Hon. Joan Marie Azrack to questions submitted by:
    Senator Cruz.................................................   909
    Senator Grassley.............................................   903
Responses of Loretta Copeland Biggs to questions submitted by:
    Senator Cruz.................................................   918
    Senator Grassley.............................................   911
Responses of Michael P. Botticelli to questions submitted by:
    Senator Feinstein............................................   945
    Senator Grassley.............................................   930
    Senator Hirono...............................................   942
Responses of Elizabeth K. Dillon to questions submitted by:
    Senator Cruz.................................................   927
    Senator Grassley.............................................   920

         LETTER RECEIVED WITH REGARD TO HON. JOAN MARIE AZRACK

American Bar Association, September 22, 2014, letter.............   952


         LETTER RECEIVED WITH REGARD TO LORETTA COPELAND BIGGS

American Bar Association, September 22, 2014, letter.............   954


         LETTERS RECEIVED WITH REGARD TO MICHAEL P. BOTTICELLI

Alliance for Children and Families et al., October 23, 2014, 
  letter.........................................................   977
American Medical Association (AMA), November 12, 2014, letter....   995
American Psychiatric Association (APA), October 8, 2014, letter..   968
American Society of Addiction Medicine (ASAM), September 4, 2014, 
  letter.........................................................   958
Association for Medical Education and Research in Substance Abuse 
  (AMERSA), November 11, 2014, letter............................   994
Beletsky, Leo, J.D., M.P.H., November 9, 2014, letter............   987
Center for Children and Family Futures, October 15, 2014, letter.   974
Community Anti-Drug Coalitions of America (CADCA), September 19, 
  2014, letter...................................................   964
Faces and Voices of Recovery (FAVOR), November 5, 2014, letter...   985
Harm Reduction Coalition, November 12, 2014, letter..............   996
Legal Action Center, November 10, 2014, letter...................   989
Lines for Life, November 10, 2014, letter........................   991
Major County Sheriffs' Association (MCSA), November 12, 2014, 
  letter.........................................................   998
McAdams, Hon. Ben, Mayor, Salt Lake County, Utah, October 13, 
  2014, letter...................................................   973
National African American Drug Policy Coalition, Inc. (NAADPC),
  November 11, 2014, letter......................................   971
National Association for Alcoholism and Drug Abuse Counselors 
  (NAADAC), October 31, 2014, letter.............................   981
National Association for Children of Alcoholics (NACoA), November 
  7, 2014, letter................................................   986
National Association of County and City Health Officials 
  (NACCHO),
  September 16, 2014, letter.....................................   963
National Association of Drug Court Professionals (NADCP), 
  September 24, 2014, letter.....................................   965
National Association of Psychiatric Health Systems (NAPHS), 
  October 16, 2014, letter.......................................   975
National Association of State Alcohol and Drug Abuse Directors, 
  Inc. (NASADAD), September 9, 2014, letter......................   959
National Council on Alcoholism and Drug Dependence, Inc. (NCADD),
  September 29, 2014, letter.....................................   967
National Council for Behavioral Health, September 11, 2014, 
  letter.........................................................   962
National Criminal Justice Association et al., November 4, 2014, 
  letter.........................................................   984
National District Attorneys Association (NDAA), October 30, 2014, 
  letter.........................................................   980
National Family Partnership (NFP), November 10, 2014, letter.....   993
Partnership for Drug-Free Kids, September 26, 2014, letter.......   966
Partnership for Drug-Free Kids et al., November 10, 2014, letter.   992
Phoenix Multisport, September 10, 2014, letter...................   961
Sanford, Catherine ``Kay,'' MSPH, November 10, 2014, letter......   988
Swanson, Richard R., Ph.D., November 3, 2014, letter.............   983
University of Vermont, Collegiate Recovery Community, October 8, 
  2014, letter...................................................   970
Vermont Recovery Network, October 17, 2014, letter...............   976
Zwick Healthcare Consultants, LLC, November 2, 2014, letter......   982

           LETTER RECEIVED WITH REGARD TO ELIZABETH K. DILLON

American Bar Association, September 22, 2014, letter.............   956


                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Gillibrand, Hon. Kirsten E., a U.S. Senator from the State of New 
  York, prepared statement with regard to Hon. Joan Marie Azrack, 
  Nominee to be District Judge for the Eastern District of New 
  York...........................................................  1000
Kaine, Hon. Tim, a U.S. Senator from the State of Virginia, 
  prepared
  statement with regard to Elizabeth K. Dillon, Nominee to be 
  District Judge for the Western District of Virginia............  1004
Markey, Hon. Edward J., a U.S. Senator from the State of 
  Massachusetts, prepared statement with regard to Michael P. 
  Botticelli, Nominee to be Director of National Drug Control 
  Policy.........................................................  1005
Warner, Hon. Mark R., a U.S. Senator from the State of Virginia, 
  prepared statement with regard to Elizabeth K. Dillon, Nominee 
  to be District Judge for the Western District of Virginia......  1002

                            C O N T E N T S

                              ----------                              

                     DECEMBER 10, 2014, 10:11 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......  1015
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......  1009
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.  1007
    prepared statement...........................................  1098

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................  1031
Lee, Michelle K., Nominee to be Under Secretary of Commerce for 
  Intellectual Property and Director of the U.S. Patent and 
  Trademark Office...............................................  1011
    biographical information.....................................  1032
    prepared statement...........................................  1093
Marti, Daniel Henry, Nominee to be U.S. Intellectual Property 
  Enforcement Coordinator, Executive Office of the President.....  1010
    biographical information.....................................  1072
    prepared statement...........................................  1096

                               QUESTIONS

Questions submitted to Michelle K. Lee by:
    Senator Coons................................................  1106
    Senator Durbin...............................................  1103
    Senator Grassley.............................................  1110
    Senator Hatch................................................  1113
    Senator Leahy................................................  1100
Questions submitted to Daniel Henry Marti by:
    Senator Coons................................................  1109
    Senator Durbin...............................................  1105
    Senator Grassley.............................................  1112
    Senator Leahy................................................  1101

                                ANSWERS

Responses of Michelle K. Lee to questions submitted by:
    Senator Coons................................................  1133
    Senator Durbin...............................................  1129
    Senator Grassley.............................................  1140
    Senator Hatch................................................  1146
    Senator Leahy................................................  1126
Responses of Daniel Henry Marti to questions submitted by:
    Senator Coons................................................  1123
    Senator Durbin...............................................  1120
    Senator Grassley.............................................  1114
    Senator Leahy................................................  1117

            LETTERS RECEIVED WITH REGARD TO MICHELLE K. LEE

Application Developers Alliance, December 5, 2014, letter........  1157
Asian/Pacific Islander American Chamber of Commerce and 
  Entrepreneurship (ACE), December 1, 2014, letter...............  1167
Davies, Susan M., et al., November 14, 2014, letter..............  1160
Engine Advocacy, October 28, 2014, letter........................  1158
Imada, Bill, December 1, 2014, letter............................  1151
International Trademark Association (INTA), November 5, 2014, 
  letter.........................................................  1159
National Asian Pacific American Bar Association (NAPABA), 
  December 1, 2014, letter.......................................  1153
Takayasu, Sach, December 1, 2014, letter.........................  1149

           LETTERS RECEIVED WITH REGARD TO DANIEL HENRY MARTI

American Intellectual Property Law Association (AIPLA), November 
  10, 2014, letter...............................................  1173
Copyright Alliance, November 14, 2014, letter....................  1174
CreativeFuture, November 20, 2014, letter........................  1176
Entertainment Software Association (ESA), December 9, 2014, 
  letter.........................................................  1179
Hispanic Bar Association of the District of Columbia (HBA-DC), 
  November 10, 2014, letter......................................  1177
International AntiCounterfeiting Coalition (IACC), January 8, 
  2015, letter...................................................  1169
International Trademark Association (INTA), November 5, 2014, 
  letter.........................................................  1171
Motion Picture Association of America, Inc. (MPAA), November 7, 
  2014,
  letter.........................................................  1172
National Music Publishers' Association (NMPA), October 31, 2014, 
  letter.........................................................  1170
United States Chamber of Commerce, December 9, 2014, letter......  1180

                     ALPHABETICAL LIST OF NOMINEES

Alonso, Hon. Jorge Luis, Nominee to be U.S. District Judge for 
  the Northern District of Illinois..............................     5
Azrack, Hon. Joan Marie, Nominee to be U.S. District Judge for 
  the Eastern District of New York...............................   677
Biggs, Loretta Copeland, Nominee to be U.S. District Judge for 
  the Middle District of North Carolina..........................   678
Blakey, John Robert, Nominee to be U.S. District Judge for the 
  Northern District of Illinois..................................     6
Botticelli, Michael P., Nominee to be Director of National Drug 
  Control Policy.................................................   679
Burroughs, Allison Dale, Nominee to be U.S. District Judge for 
  the Northern District of Massachusetts.........................   395
Davidson, Jeanne E., Nominee to be Judge of the U.S. Court of 
  International Trade............................................   396
Dillon, Elizabeth K., Nominee to be U.S. District Judge for the 
  Western District of Virginia...................................   679
Gilliam, Haywood Stirling, Jr., Nominee to be U.S. District Judge 
  for the Northern District of California........................   397
Lee, Michelle K., Nominee to be Under Secretary of Commerce for 
  Intellectual Property and Director of the U.S. Patent and 
  Trademark Office...............................................  1011
Marti, Daniel Henry, Nominee to be U.S. Intellectual Property 
  Enforcement Coordinator, Executive Office of the President.....  1010
Mazzant, Hon. Amos L., III, Nominee to be U.S. District Judge for 
  the Eastern District of Texas..................................     6
Mehta, Amit Priyavadan, Nominee to be U.S. District Judge for the 
  District of Columbia...........................................   398
Pitman, Robert Lee, Nominee to be U.S. District Judge for the 
  Western District of Texas......................................     7
Schroeder, Robert William, III, Nominee to be a U.S. District 
  Judge for the Eastern District of Texas........................     8

 
NOMINATIONS OF HON. JORGE LUIS ALONSO, NOMINEE TO BE DISTRICT JUDGE FOR
  THE NORTHERN DISTRICT OF ILLINOIS; JOHN ROBERT BLAKEY, NOMINEE TO BE
                    DISTRICT JUDGE FOR THE NORTHERN
DISTRICT OF ILLINOIS; HON. AMOS L. MAZZANT, III, NOMINEE TO BE DISTRICT 
JUDGE FOR THE EASTERN DISTRICT OF TEXAS; ROBERT LEE PITMAN, NOMINEE TO 
BE DISTRICT JUDGE FOR THE WESTERN DISTRICT OF TEXAS; AND ROBERT WILLIAM 
 SCHROEDER, III, NOMINEE TO BE DISTRICT JUDGE FOR THE EASTERN DISTRICT
                                OF TEXAS

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Dick Durbin, 
presiding.
    Present: Senators Cornyn and Cruz.

             OPENING STATEMENT OF HON. DICK DURBIN,
           A U.S. SENATOR FROM THE STATE OF ILLINOIS

    Senator Durbin. The Judiciary Committee will come to order. 
We will consider five highly qualified nominees to the Federal 
bench.
    They are Jorge Luis Alonso, who has been nominated to be a 
District Judge for the Northern District of Illinois; John 
Robert Blakey, also nominated for the Northern District of 
Illinois; Amos L. Mazzant, III, nominated for the Eastern 
District of Texas; Robert William Schroeder, III, also 
nominated for the Eastern District of Texas; and Robert Lee 
Pitman, nominated for the Western District of Texas.
    At these hearings, it is traditional for nominees to be 
introduced before the Committee by Senators from their home 
States. I will note that the Ranking Member will soon join us.
    We are going to proceed with introductions. I am going to 
start by introducing Jorge Alonso from Illinois, and then turn 
to my colleague, Senator Mark Kirk, who will introduce Jack 
Blakey. My colleagues from Texas, when they arrive, will make 
their introductions.
    I am pleased to introduce Judge Jorge Alonso before this 
Committee. Judge Alonso has been nominated to fill the vacancy 
in the Northern District of Illinois that will be opening up on 
November 16, when Judge Ronald Guzman takes senior status.
    Since 2003, Judge Alonso has served as an Associate Judge 
for the Cook County Judicial Circuit. Currently in his third 
appointed term, he presides over felony cases at the Cook 
County Criminal Court Building.
    As a State trial court judge, Judge Alonso has presided 
over hundreds of cases that have gone to verdict or judgment, 
including at least 88 jury trials. He also presides over the 
Women's Justice Mental Health Call in Cook County. Judge Alonso 
helped to create this program and it provides intensive support 
and services to women in the justice system who have suffered 
from trauma and addiction.
    Prior to serving as a State court judge, Judge Alonso 
served for 12 years as an Assistant Public Defender in Cook 
County. He initially handled civil proceedings in the Child 
Protection Division of the Public Defender's Office, and later 
worked in the Juvenile Justice Division and the Felony Trial 
Division. As a public defender, he participated in 
approximately 30 jury trials and 150 bench trials.
    In addition to his substantial courtroom and judicial 
experience, he has an admirable record of service in the 
Chicago community. Among his activities, he serves on the 
boards of the Daniel Murphy Scholarship Fund, providing 
scholarships and support to low-income Chicago students, and 
the Cristo Rey Jesuit High School in Chicago's Pilsen 
neighborhood. He also works as judicial interviewer with the 
Lawyers Assistance Program, which assists members of the bar 
who are struggling with mental health or addiction issues.
    Judge Alonso received his undergraduate degree from the 
University of Miami and his law degree here at the George 
Washington University Law School.
    To put it simply, Judge Alonso is an outstanding nominee. 
He has the experience, the integrity, and the judgment to be an 
excellent Federal Judge.
    In Illinois, we have a bipartisan process which Senator 
Kirk and I have initiated to select judicial candidates and 
send their names to the White House. Under the system, I 
recommended Judge Alonso for the Federal bench. I thank my 
colleague, Senator Kirk, for signing a blue slip signaling his 
support for that nomination.
    Judge Alonso has a few more supporters in the audience. I 
think I will let him acknowledge them when he comes to the 
table, but we are glad that the entire family is here today.
    I am going to turn to my other colleagues to introduce 
nominees and since Senator Kirk was not only prompt, but early, 
I am going to recognize him at this point.
    Senator Mark Kirk.

         PRESENTATION OF JOHN ROBERT BLAKEY, NOMINEE TO
         BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF
        ILLINOIS, BY HON. MARK KIRK, A U.S. SENATOR FROM
                     THE STATE OF ILLINOIS

    Senator Kirk. Thank you, Mr. Chairman. I am here to 
recommend and to thank you and President Obama for bringing 
forward Jack Blakey.
    I am going to focus on Jack Blakey because it is a twofer. 
We are getting Jack and his dad. His father, Robert Blakey, 
worked for Senator McClellan of Arkansas in the late 70s and 
wrote the RICO Statute. If there is any State in the Union that 
needs experts on RICO, it is Illinois.
    I just would thank you for having--I would say with Jack 
Blakey we are putting a guy on the bench who is an experienced 
Shakespearean actor who even performed in London--90 trials all 
the way to the end, including bench and jury trials. He is 
working for Anita Alvarez in a very senior leadership position 
in Cook County, Illinois, a place you would know very well.
    With that, I will conclude then. Thank you, Mr. Chairman.
    Senator Durbin. Senator Kirk, thank you very much.
    Mr. Blakey, thank you for being here and you will have an 
opportunity to introduce your family when you are called.
    The other nominees are from the great State of Texas. Who 
is here to speak on their behalf but Senator John Cornyn. Take 
it away, Senator.

             OPENING STATEMENT OF HON. JOHN CORNYN,
             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cornyn. Thank you, Mr. Chairman. I like the way you 
said ``Great State of Texas.'' We agree.
    I want to thank the Chairman for convening this hearing. We 
have before us five nominees for the Federal bench, three of 
whom have been nominated to fill vacancies in Texas.
    I want to congratulate each of those nominees and their 
families for this great honor. I know you traveled a long way 
and endured a lot of paperwork and other scrutiny to get where 
you are. I want to just introduce these three nominees briefly.
    Magistrate Judge Amos Mazzant is a fixture in the bar in 
Sherman, Texas in the Eastern District. He graduated from the 
University of Pittsburgh and Baylor Law School, and remained in 
Texas after that.
    From 1990 to 1992, Judge Mazzant clerked in Sherman for 
U.S. District Judge Paul Brown. Since then he has made his 
legal career there, including serving for the last 5 years as a 
Federal Magistrate.
    If confirmed, Judge Mazzant will serve in the courthouse 
named for Judge Brown.
    Robert Pitman is our U.S. Attorney in the Western District 
of Texas. He has graduated from Abilene Christian University 
and University of Texas Law School, and then clerked for a 
Federal Judge.
    Before assuming his current role, Mr. Pitman served for 
many years as a Federal Prosecutor and Magistrate in the 
Western District. He has earned accolades for his work at every 
level, as well as the support of the local bar.
    I was proud to support Robert for U.S. Attorney, and I am 
proud to support him for the nomination at the Federal bench.
    Trey Schroeder is a litigator in private practice in 
Texarkana, Texas. I understand he is not a native Texan, but we 
have always taken converts and people who got there as fast as 
they could.
    He graduated from the University of Arkansas and American 
University's Washington College of Law. Since then he has had a 
distinguished career, including work in the Office of the 
Counsel to President, and as a law clerk on the U.S. Court of 
Appeals for the Eighth Circuit.
    He is currently a partner at Patton, Tidwell and Schroeder, 
and his reputation in Texarkana is stellar.
    Each of these three nominees are lawyers of the highest 
caliber and the kind of individuals who should serve on the 
Federal bench. That is no surprise because like your process, 
Mr. Chairman, we have a bipartisan Federal Judicial Evaluation 
Committee that has scrutinized these nominees and done an 
outstanding job in making these recommendations to Senator Cruz 
and myself, and working with the White House to get these 
nominations where they are today.
    The FJEC, as we call it, is a bipartisan blue ribbon panel 
of some of the best lawyers and judges in the State of Texas. 
They provide input on applicants to the Federal bench and we 
work closely with the White House, as I said, to ensure that 
the nominees in our State are the kind of men and women who 
deserve the honor of these important jobs and lifetime tenure 
that goes along with it.
    I want to thank our volunteers who serve on the FJEC and 
the White House Counsel's Office for their work with our 
offices on these nominations. I am proud of the work that the 
FJEC has done and the quality of these nominees. I look forward 
to hearing from all of them. Thank you.
    Senator Durbin. Thanks, Senator Cornyn. I will ask the 
staff to put the name tags before the chairs so each nominee 
will see where they are to approach in just a moment.
    For the record, all of these nominees have gone through an 
extensive process, an application, which is voluminous and then 
review by committees in Illinois and Texas in this 
circumstance. They have answered scores and scores of questions 
about their background. So if the questioning today is brief, 
it is not an indication that we think there is little to be 
asked. A lot has all ready been asked and answered.
    We will start by asking the nominees to each approach the 
table and stand for a moment while I administer the oath 
customary of the Committee.
    Raise your right hand. Do you affirm the testimony you are 
about to give before the Committee will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Judge Alonso. I do.
    Mr. Blakey. I do
    Judge Mazzant. I do.
    Mr. Pitman. I do.
    Mr. Schroeder. I do.
    Senator Durbin. Thank you. Let the record reflect that all 
five of the witnesses and nominees have answered in the 
affirmative. We are going to give each of you a chance to say a 
few words by way of opening, and start with Judge Alonso.

  STATEMENT OF HON. JORGE LUIS ALONSO, NOMINEE TO BE DISTRICT 
          JUDGE FOR THE NORTHERN DISTRICT OF ILLINOIS

    Judge Alonso. Thank you, Senator. I would like to start by 
thanking the Committee, the entire Committee for convening this 
meeting. I would like to thank the Chairman, the Ranking 
Member, and I would also like to thank you, Senator Durbin. I 
would like to thank you for presiding and chairing today. I 
would also like to thank you for your gracious introduction, as 
well as, of course, for your recommendation and all of your 
support.
    Of course, I would like to thank President Obama for this 
incredible honor of the nomination.
    I do have family with me here today, as you alluded to. I 
have my wonderful wife here, Amee Alonso, of 15 years. My 
amazing daughters are here, Lila, Ursula, and Lulu. They are 
here. They are in eighth grade and sixth grade, and they have 
sacrificed a couple of days to be here.
    I have got my mother here from Florida, Ursula Alonso, and 
I would like to thank her for being here. I am so happy she is 
here. And I would like to thank her for her support, her 
guidance throughout all of these years.
    I would be remiss if I didn't mention my father. We lost my 
father some years ago, Pedro Alonso, but I would like to have 
his name inserted in the record. And he would be thrilled to be 
here, as thrilled as my mother is and the rest of my family.
    Also here from Arizona are my wonderful in-laws, Robert and 
Rosemarie Orlick. He is a retired engineer and a Korean War 
Veteran.
    I have family that couldn't make it here today that is 
watching on the webcast and supporting me. I would like to 
acknowledge my brother, Jose Alonso, who is an attorney in 
Florida; my sister and her family, Dr. Susanna and Steven 
Barski, and their wonderful daughters, Elia and Emily. And in 
Arizona I have my sister-in-law and her family, Drs. Kathy and 
Douglas Little. He is also a Colonel in the National Guard and 
they have four wonderful children, Christopher, the oldest that 
we are all very proud of, and the rest, AJ, Alexandra, and 
Brendan who, of course, we are also proud of.
    I would also like to just acknowledge all the support back 
in Chicago, back home from my legal family, all of the 
hardworking professionals that I have been fortunate enough to 
serve with over the last 10 years, plus all of my fellow judges 
in Cook County, all of the hardworking lawyers, and all of the 
other individuals that have always supported me, clerks, 
sheriffs, court reporters, interpreters, probation officers.
    Thank you very much.
    [The biographical information of Judge Alonso appears as a 
submission for the record.]
    Senator Durbin. Thank you, Judge.
    Mr. Blakey.

 STATEMENT OF JOHN ROBERT BLAKEY, NOMINEE TO BE DISTRICT JUDGE 
             FOR THE NORTHERN DISTRICT OF ILLINOIS

    Mr. Blakey. Thank you, Mr. Chairman. Thank you for 
presiding today. Thank you for your support and all of your 
hard work on behalf of the Committee. Thank you too, Senator 
Cornyn, for being here today.
    I would like to thank the President and Senator Kirk. I am 
humbled by their confidence in me and I appreciate their kind 
words and support.
    With me today is my wife, Christina. We have been married 
almost 20 years and she certainly is a good example of good 
judgment on my behalf in choosing to ask her to marry me.
    My father is here, Professor G. Robert Blakey. My father-
in-law, Dan Saracino, is also here. And my four boys, Joseph 
Blakey, Charlie Blakey, Daniel Blakey, and George Blakey are 
all here as well.
    And a dear friend of mine, Steve Nagorski, is also here. He 
lives in the Washington area.
    My brother Michael and my sisters, Liz, Marie, Katie, 
Christie, and Megan are all watching from home. They are here 
in spirit.
    And my brother Matt and my mother have passed, but are also 
here in spirit.
    I look forward to the questions from the Committee and 
thank you very much.
    [The biographical information of Mr. Blakey appears as a 
submission for the record.]
    Senator Durbin. Thank you.
    Judge Mazzant.

       STATEMENT OF HON. AMOS L. MAZZANT, III, NOMINEE TO
      BE DISTRICT JUDGE FOR THE EASTERN DISTRICT OF TEXAS

    Judge Mazzant. Thank you, Senator, and I want to thank the 
Committee for convening the hearing. I want to thank the 
President for the honor of this nomination. I want to thank 
Senator Cornyn for his kind introduction, as well as both 
Senator Cornyn and Cruz for recommending me to the President. 
And I want to thank the Senators Federal Judicial Evaluation 
Committee for recommending me to the Senators.
    I have a large number of family that made the trip here 
today. If you will indulge me, I will introduce them.
    The love of my life, my wife Michelle of 24 years. She is a 
kindergarten teacher in Sherman. My daughter, Caitlin would 
have loved to have been here, but she is starting her freshman 
year at Texas A&M and is watching via the webcast. My younger 
daughter, Alex is here. She is missing high school. She is a 
junior at Sherman High School.
    My sisters are here, Cynthia Mazzant and Jim Colbert. My 
younger sister Kristina Mazzant-Thorpe, and my nephew Zach. My 
brother-in-law, Sam, is watching via webcast, as is my niece, 
Taylor, who is also in college.
    My father would have loved to have been here, but he and my 
stepmother, Amos and Cookie Mazzant, are watching via the 
webcast in Florida. And my brother Matt is--hopefully--he said 
he would get up to watch from California, early. We will see if 
he did or not later.
    I have wonderful in-laws. They are here, Jeanne and Bill 
Melfi; my brother-in-law, Todd and Melissa Melfi. My wife's 
aunt Rosemarie Melfi is here. My wife's Uncle Donnie and Aunt 
Jackie Melfi are here as well, as well as her cousin Marilyn 
Coleman.
    I also have some of my staff members here, Terri Scott, my 
judicial assistant, as well as Debbie McCord, my courtroom 
deputy and my career law clerk is watching via the webcast.
    I have a number of lawyer friends that actually showed up 
too, and I will just say their names really quickly, Alienne 
Durrett, Bret Johnson, Kimberly Preist-Johnson, Roger Sanders, 
Clyde Sigman, Judge Carol Sigman, all from Sherman or Dallas, 
as well as Jim Carter who is from here in Washington, DC.
    I would also like to acknowledge the judges of the Eastern 
District who have been so supportive of me in this effort. I 
want to acknowledge my mother who passed away 13 years ago, but 
is here in spirit.
    And then finally, I would like to just recognize Judge Paul 
Brown who was my mentor and hired me as a law clerk and changed 
my career 24 years ago, and we have several other law clerks 
here that are in attendance. And I thank you.
    [The biographical information of Judge Mazzant appears as a 
submission for the record.]
    Senator Durbin. Thank you very much.
    Mr. Pitman.

 STATEMENT OF ROBERT LEE PITMAN, NOMINEE TO BE DISTRICT JUDGE 
               FOR THE WESTERN DISTRICT OF TEXAS

    Mr. Pitman. Thank you Chairman Durbin, Senator Cornyn. I 
appreciate this opportunity to appear before you today. I 
especially would like to thank Senator Cornyn for his generous 
introduction and for his longstanding support.
    I would like to thank both Senator Cornyn and Senator Cruz 
for submitting my name to the President. And, of course, I 
would like to express my appreciation to President Obama once 
again for the proud honor of a nomination. The opportunity to 
serve as U.S. Attorney has been the greatest honor of my life, 
and I am humbled beyond words now to be considered for 
appointment to the bench.
    I would like to acknowledge several family members and 
friends who are with me here today. Joining me today is David 
Smith, on whose support, and encouragement, and wisdom I have 
relied for over 20 years now.
    Of my four brothers and sisters, one is with me today, my 
eldest brother, Tim and his wife, Echo. The youngest of five 
kids, I owe much to the guidance and love--albeit sometimes 
tough love--of my elder siblings and I appreciate so much their 
support throughout the process.
    Echo's daughter, Rebecca Beyer, has joined us from New York 
today. I am also very honored to have today supporting me, 
several friends who have come from Texas. They are really like 
family to me, and they have supported me, again, throughout 
this process, John Dalton and Marilyn and Lex Henderson.
    Finally, Mr. Chairman, I would like to recognize, for the 
record, the outstanding men and women of the U.S. Attorneys 
Office for the Western District of Texas with whom it has been 
my honor to serve and who I believe represent the very best of 
public service.
    Thank you and I appreciate the opportunity to appear today.
    [The biographical information of Mr. Pitman appears as a 
submission for the record.]
    Senator Durbin. Mr. Pitman, would that include your first 
assistant?
    Mr. Pitman. That does. My first assistant--for the record, 
his name is Richard Durbin.
    [Laughter.]
    Mr. Pitman. Senator, I figured with a name like that, I 
couldn't go wrong.
    Senator Cornyn. No relation, I hope.
    [Laughter.]
    Mr. Pitman. He is a graduate of the University of Chicago.
    Senator Durbin. Mr. Schroeder.

   STATEMENT OF ROBERT WILLIAM SCHROEDER, III, NOMINEE TO BE 
            DISTRICT JUDGE FOR THE EASTERN DISTRICT
                            OF TEXAS

    Mr. Schroeder. Thank you, Senator Durbin, for chairing the 
hearing today and for giving me the opportunity and the 
privilege to be here. Thank you, as well, Senator Cornyn for 
being here today. I want to thank Chairman Leahy and Ranking 
Member Grassley for scheduling the hearing as well as the other 
Members of the Committee for considering my nomination.
    I would like to begin by thanking President Obama for 
nominating me for this position. I am humbled by it. I am 
grateful to you, Senator Cornyn and Senator Cruz for 
recommending me to the President and for your support and the 
support of your staffs throughout this process.
    Thank you, Senator Cornyn, for your kind and generous words 
today. I would also like to thank the Senator's Bipartisan 
Federal Judicial Evaluation Committee for considering my 
application and for its support of me as well.
    I am fortunate today to be joined by my family and I would 
like to introduce them. My parents, Mary and Bill Schroeder are 
here. Just last month, they celebrated their 50th wedding 
anniversary. They are two of the finest, hardest working people 
I know, and I owe so much to both of them for their love and 
support.
    My mother-in-law, Nancy DeLamar, the best mother-in-law one 
could hope for, and I am glad that she is here today. My 
daughters, Eleanor and Francis are here. Their birthdays were 
last week. They turned 15 and just started as freshmen at Texas 
High School in Texarkana. Their mother and I are very proud of 
them and the fine young women that they are becoming. I would 
be remiss if I did not also tell you that they are both 
excellent soccer players.
    Finally, my wife, Megan--we were married 20 years ago this 
summer. And as Senator Cornyn sometimes says about himself, 
Megan is a recovering lawyer herself and I can assure you that 
she is the smartest lawyer at our house. She is my best friend 
and the love of my life.
    I also have a couple of friends that I would like to 
briefly acknowledge. My lifelong friend, Brad Davis, came from 
Little Rock and I am glad to have him here. We have been 
friends for more than 45 years.
    One of my law partners, Kelly Tidwell, is here with his 
son, Hutch, who is a tenth grader, also at Texas High School. 
And I am glad that they were able to make the trip.
    I also have several longtime friends from Washington who 
were able to be here today, and I thank them as well. And 
finally, friends, other family members, and colleagues from 
back home watching on the webcast. I appreciate their support.
    And my thanks to all of you and I look forward to answering 
your questions.
    [The biographical information of Mr. Schroeder appears as a 
submission for the record.]
    Senator Durbin. Thanks, Mr. Schroeder.
    I am going to ask a generalized question to start with. I 
am going to acknowledge the obvious. None of you would be 
sitting here today if you didn't have the appropriate legal 
credentials and experience. And now you are aspiring, for most 
of you, to a new position in life, at least at the Federal 
level, to be a judge.
    In that position, you are going to be called on to use that 
legal expertise, that experience, in a different way. My 
experience--in the distant past when I practiced law--was that 
you were looking for two things when it came to a judge, the 
right temperament and fairness.
    I have had a chance, having served here for a few years, to 
interview a lot of people aspiring to the Federal bench, even 
to the Supreme Court, and I have found it interesting how many 
of them would come before me and say, ``Ignore what you read 
about what I have done in the past. That really has nothing to 
do with what I will do in the future. I am going to go right 
down the center stripe of the highway. I used to be left-handed 
all of my life. I can be right-handed too. I can do whatever it 
takes to make sure that we apply the law fairly and accurately 
and so forth and so on.''
    Most of the time as I observe their records afterwards it, 
it turns out to be less than truthful. What we are today is 
what we were and what we learned in our life experience.
    So I would like to ask each of you--for three of you there 
is a life experience as a defender, as a prosecutor, and other 
experiences. You have been in courtrooms, all of you, many 
times in the fray representing litigants, prosecuting, 
defending, some clerking for the judges who are observing this 
process and trying to come to a fair outcome.
    I would like to have each of you comment on these two basic 
ideas of temperament in judges and fairness, what you have 
observed and the standard you would hold yourself to.
    Judge Alonso, start.
    Judge Alonso. Thank you, Senator. In terms of temperament, 
Senator, what I have tried to do over these past 11 years is I 
have always tried to make sure that I am kind and respectful to 
everyone that appears before me, litigants, attorneys, all of 
the parties. I try to practice restraint at all times.
    It is my sense that as judges we have to control the 
courtroom, but I feel that if you can't control your own 
emotions, it is very, very difficult to control the courtroom 
or the emotions of other people that appear in front of you. It 
is my feeling that they take their cue from you as the judge in 
the courtroom.
    I try always to be humble and I also try always to be 
patient. I think that is a very important trait. I think only 
when we are patient can we make sure that everyone feels like 
they have had their say and have been heard.
    Senator Durbin. Mr. Blakey, your background is largely as a 
prosecutor. And to put it in context, if I am an impoverished 
criminal defendant, minority, standing before you as my judge, 
do I have a chance?
    Mr. Blakey. Thank you for the question, Senator. Of course. 
As a public servant for over 20 years, having done both 
criminal and civil, having done prosecution and some criminal 
defense issues, some issues with respect to being a law clerk, 
I have always been committed--no matter who my client was--to 
the rule of law. And if I am fortunate enough to be confirmed, 
I would bring that to the bench and I would have not only the 
temperament to apply the law fairly and to give dignity to each 
person who came into the room, I would do it impartially.
    I would never put my finger upon the scales of justice for 
any party, whether it be the government or any particular 
litigant. I would listen. I would be humble. And I would be 
patient because in humility and patience and listening comes 
very good results. It allows a person not only to know that 
they have been heard, but that they have been understood.
    Senator Durbin. Mr. Mazzant, I don't know the judges that 
you have clerked for and worked with, but you have certainly 
observed it from that side of the courtroom. What are your 
thoughts on this?
    Judge Mazzant. Thank you, Senator, for the question. I have 
had a great role model with Judge Paul Brown. He epitomized 
what a good judge would be, followed the rule of law, had a 
great temperament, treating everyone with respect.
    When I became a judge 10 years ago, and I served both as a 
State judge and a magistrate judge for the last 5 years--I 
followed that example, following that rule of law and treating 
everybody that came before me with respect and fairness. And if 
I am lucky enough to be confirmed, I would follow that same 
pattern.
    Senator Durbin. Mr. Pitman, as a U.S. Attorney, tell me how 
you view your future role on the bench.
    Mr. Pitman. Senator, having been an Assistant State's 
Attorney and now a U.S. Attorney, I have certainly had the role 
as an advocate, but I have made this transition before from 
being an advocate to being a United States Magistrate Judge.
    Making that transition from prosecutor to being a judge, 
although it is a shift, it is somewhat different than being 
another kind of advocate that goes to the bench because a 
Federal prosecutor has the obligation of being an advocate, but 
also of doing justice. And so I think because that has been an 
added dimension of the job that I have had throughout my career 
as an advocate, I have appreciated the fact that a big part of 
that job was to be a gatekeeper and to watch out for people's 
rights even if they were on the other side of the docket.
    I did that, I believe, successfully when I made the 
transition to be a United States Magistrate Judge. And I pledge 
to you that I will understand the difference between being an 
advocate, and I will understand that as a judge I will need to 
be not only an impartial and neutral arbiter, but to be seen 
and perceived as that.
    Senator Durbin. Thank you.
    Mr. Schroeder.
    Mr. Schroeder. Thank you for the question, Senator Durbin. 
I have had a diverse legal career. I had a couple of years 
clerking for Judge Richard Arnold on the Eighth Circuit Court 
of Appeals which was an amazing experience for me.
    He had a profound commitment to the rule of law, and I 
learned so much from him about the importance of preparation 
and the importance of hard work, the importance of being kind 
and courteous to litigants and counsel. I had a few years 
working in the executive branch here in Washington, and I have 
had 15 years of private practice in Texarkana.
    My experience and the judges in both State and Federal 
court that I have appeared before that I most admired were well 
prepared, thoughtful, careful, people of modesty and humility 
who recognize their role in the process and who recognize that 
their role as the judge was an important role, but a limited 
role. And their job and obligation was to carefully consider 
the facts and apply the law to the facts of each case, 
approaching each case fairly, impartially, and with an open 
mind. And that is the kind of judge I would try to be.
    Senator Durbin. Thank you and I find it interesting how 
many of you have used the word ``humility.'' Humble is one of 
the first words that comes to mind when you say ``United States 
Senator.''
    [Laughter.]
    Senator Durbin. We have a lot to be humble about, I guess.
    I acknowledge the presence of Senator Cruz and I will 
recognize him immediately after Senator Cornyn.
    Senator Cornyn. Well, thank you, Mr. Chairman. Mr. 
Schroeder, you mentioned the fact that I was a recovering 
lawyer, and as you know, I also spent 13 years on the State 
bench, so I admit to being a recovering judge as well.
    [Laughter.]
    Senator Cornyn. I agree 100 percent with what Senator 
Durbin said about we are all a product of our background and 
upbringing and probably what we will do in the future--the best 
indicator of that is what we have done in the past, but I also 
would want to stress what some of you have acknowledged is that 
your role as an Article III Federal District Judge is different 
from any role that you have held in the past.
    I know for the three nominees from Texas, you have gone 
through a very extensive vetting process, FBI background check, 
you have got public records that have been examined closely 
and, as we said, to the FJEC's bipartisan evaluation. I feel 
like I know a lot about each of you, and it is because of the 
confidence that I have that I was very comfortable recommending 
to the President each of you be nominated for these positions.
    So I don't have a lot of questions, but I just want to ask 
each of you--my experience has been that what litigants want, 
what people who come into court want are basically three 
things. They want somebody who will listen, somebody who will 
treat them respectfully, and somebody who will follow the law.
    I will start with you, Mr. Alonso, and we will go down the 
line. Would each of you agree with that or disagree? And if you 
agree with it, will you do it?
    Judge Alonso. I agree with it. I think that is a great top 
three. There are many skills that are necessary and that come 
into play, but that is a great start, very important traits. I 
have tried over the last 11 years to operate exactly that way, 
and so happily in my case, you have my assurances, of course, 
that I will continue to do that. Also we have, hopefully, the 
evidence of the job that I have tried to do over these last 11 
years as a judge in Cook County.
    Senator Cornyn. Thank you.
    Mr. Blakey. Thank you, Senator. Yes, I agree with you 
emphatically. I believe that listening is perhaps one of the 
key ones that you mentioned. Listening and engaging the 
attorneys to find the critical legal and factual turns of a 
case is critically important not only in getting a good result, 
but getting the nuance of the result and the basis for the 
result correct and for avoiding unjust results or unnecessary 
costs or delay. So I agree with you completely.
    Judge Mazzant. Thank you, Senator. I agree with you 
wholeheartedly and that is something that as a judge for the 
last 10 years, as the magistrate judge sitting in Sherman for 
the last five, that is what I try to do every single day with 
every case, to follow those three precepts you set out.
    Mr. Pitman. Senator, of course, I do agree with that. I 
would add that it has often occurred to me as a judge and 
someone who has practiced in Federal court all of my career, 
that with life tenure comes a reciprocal obligation to treat 
people respectfully, to have a strong work ethic and then to 
respect the law because you are the face of the justice system. 
And I pledge to you that I will do as I have done previously in 
my career and be the judge that you have described.
    Mr. Schroeder. Thanks for the question, Senator Cornyn. I 
do agree with that and that is exactly the kind of judge I 
would hope to be.
    Senator Cornyn. If there was one other trait I would 
mention, it would be patience. Because some of you have alluded 
to the fact that with life tenure, sometimes people lose their 
patience. They develop what is commonly called in the 
profession ``robotis,'' which is a dangerous disease that 
judges sometimes get.
    When you don't have to stand for election, and you are 
basically insulated from the kind of accountability that most 
other public officials have, sometimes that can lead you down 
the wrong path. But I feel confident based on the knowledge 
that I have that certainly the Texas nominees--I take the other 
nominees at their word that they will do those things, listen, 
be respectful, follow the law, and hopefully demonstrate 
patience and not develop that dreaded case of ``robotis.''
    I just have one other question for all of you. I would like 
to go down the row again. As a trial judge, do you believe that 
is your responsibility to follow binding precedent by the Court 
of Appeals and the U.S. Supreme Court, or do you feel like you 
have some license or authority to make new law as a lower court 
judge?
    Judge Alonso. I feel that it is the job of the trial judge 
to be bound and to follow the precedent that is set out by, in 
our case if I was fortunate to be confirmed, the Seventh 
Circuit and, of course, the Supreme Court of the United States.
    Mr. Blakey. Yes, Senator, Federal courts are very important 
courts, but they are courts of limited jurisdiction and they 
have a role to play within divided government, and part of that 
is that each member of the judiciary plays its role within the 
framework that the framers have laid down. And binding 
precedent and the authority of a superior court is critical to 
the functioning of the judicial system. I agree completely.
    Judge Mazzant. Thank you, Senator. I also agree with my 
fellow nominees. As a magistrate judge, I am bound by the 
authority of the Fifth Circuit and the Supreme Court and that 
is what I do every day in my job currently.
    Mr. Pitman. Senator, I do believe that is the role of a 
district judge to follow precedent, and I pledge to you that if 
confirmed, I will adhere to the precedent of the Supreme Court 
and Fifth Circuit as I engage in the activities of judging.
    Mr. Schroeder. Senator, I likewise agree. I think following 
precedent is what brings stability and predictability to our 
legal system and our system of justice and I would be strictly 
bound by the Supreme Court and the Fifth Circuit.
    Senator Cornyn. Mr. Chairman, I am happy to yield to 
Senator Cruz who has joined me in making these recommendations 
for the three judges from Texas to the President.
    Senator Cruz. Thank you, Mr. Chairman. Gentlemen, let me 
congratulate each of the five of you on your nominations.
    I would note for the three nominees from Texas, that as 
Senator Cornyn made reference, you have been through a vigorous 
process beginning with extensive review and interviews by the 
Federal Judicial Evaluation Committee which is a bipartisan 
committee that Senator Cornyn and I have formed together 
consisting of some of the most highly respected lawyers 
throughout the State of Texas in a variety of fields of 
practice, geographically diverse, and consciously bipartisan to 
reflect that the bench is not supposed to be a partisan 
endeavor. Upholding the rule of law and taking the oath as an 
Article III judge requires a degree of confidence, a degree of 
fidelity of law that should cut across party lines.
    So I want to commend each of the three of you from Texas 
because you would not be here had each of you not very much 
impressed the members of that committee and had you not very 
much impressed both Senator Cornyn and myself. We have had the 
opportunity to visit with all three of you. You have impressive 
professional credentials and a long career demonstrating the 
fidelity to law that we expect from our judges. It is obviously 
a unique and critically important responsibility that we 
entrust upholding the law to a relatively small number of men 
and women who take an oath to do so.
    What I would like to ask each of the five of you is a 
couple of questions. The first of all, simply how would you 
describe your judicial philosophy?
    Judge Alonso. Thank you, Senator. I would describe my 
judicial philosophy as always being open-minded, fair, patient, 
always listening until the end, always making sure that I am 
not guessing what is going to come next. I wait with an open 
mind and I exercise my judgment fairly and evenhandedly.
    Mr. Blakey. Thank you for the question, Senator. I would 
characterize my philosophy as a devotion to the law, a devotion 
to the role that we play in society, that limited role, but 
important role. In a variety of contexts, a great deal of power 
is given, and to those who are given power, much is expected. 
And I would apply law to the facts presented and I would do it 
impartially with a great deal of hard work.
    Judge Mazzant. Thank you, Senator, for your nice remarks 
about the Texas nominees. My judicial philosophy is one that I 
am bound to adhere to the rule of law, that I am going to 
impartially consider the facts of the case, apply precedent to 
those facts, and make a decision without any regard to any 
personal views or feelings I might have. And that is what I 
have done as a magistrate judge.
    Mr. Pitman. Senator, at the risk of repeating, I will 
reiterate that I believe that the judicial philosophy 
appropriate for district judge is faithful adherence to the 
rule of law and to the precedent of the Supreme Court and the 
Fifth Circuit. And I assure you that that is the philosophy 
that I will follow as a district judge if confirmed.
    Mr. Schroeder. Thank you for the question, Senator. I think 
that the role of the judge is to fairly and impartially decide 
cases with the impartial application of the rule of law. As I 
said before, I think that the role of the judge is limited. It 
is important, but limited. Judges don't make law. They decide 
concrete disputes in front of them, one case at a time with 
attention to the facts and the arguments of the parties, and by 
applying the law and precedent to those facts. And that is the 
type of judge I would hope to be.
    Senator Cruz. Thank you, gentlemen. Let me ask one 
additional question. Again, to all five of you, which is how 
would you define judicial activism and how would you 
characterize the responsibility of a judge to avoid engaging in 
judicial activism?
    Judge Alonso. Thank you, Senator. I think that an activist 
judge would be a judge who does not understand his limited 
role. I think it is a judge who has an agenda, shall we say, a 
judge who is deciding a case based on what he or she wants the 
case to be about.
    The opposite of that is a judge who exercises humility, who 
understands this limited role, and who understands that he or 
she has to decide the issues that are necessary to resolve the 
dispute that is before that judge at that time.
    Mr. Blakey. Thank you, Senator. I would define activism, 
judicial activism as a judge who has not only stepped out of 
his role as my colleague mentioned, which I agree with fully, 
but someone who has turned the law to their own purpose rather 
than serving the purpose of the law.
    A very smart person can achieve any result if they are 
willing to give up their service to the law, and I think that 
is what activism is. You should serve the law, not vice versa.
    Judge Mazzant. Thank you, Senator. I don't disagree with 
anything that my fellow nominees said, but I would just add 
that the simplest way is a judge who makes decisions based on 
what they feel should be the result is judicial activism. That 
is not what I would adhere to as a judge, and I will always 
follow the rule of law, and am bound by that precedent.
    Mr. Pitman. Again, Senator, at the risk of simply 
reiterating and repeating, I do understand that term to mean a 
judge who injects his or her personal beliefs or political 
agenda into the decisionmaking process. I believe that that is 
not the role of a judge, and it is not the mode that I would 
employ in interpreting the law or in engaging in my other 
duties as a judge.
    Mr. Schroeder. Thank you, Senator, for the question. I 
agree with what my fellow nominees have said. I think one way 
to avoid that result is by focusing on the narrowest issues in 
the case and deciding the case as narrowly as possible and not 
deciding things that don't need to be decided.
    Senator Cruz. Thank you very much, gentlemen.
    Thank you, Mr. Chairman.
    Senator Durbin. Gentlemen, I would like to ask a question 
in the second round. From the beginning of this nation, the 
drafting of the Constitution, we have grappled with one 
fundamental issue, many, but this one recurs. The issue of race 
and justice in America--a Constitution which acknowledged 
slavery, a nation which as recently as a few weeks ago in 
Ferguson, Missouri was reminded that it is still a challenge in 
this modern America despite all the progress that has been 
made, all the effort that has been put into it.
    You are seeking an opportunity to serve as a member of the 
Federal judiciary. It is likely that many of the criminal 
defendants who come before you will be minorities. It is also 
likely that many of them feel that this system is rigged 
against them. Statistics in the past--and they do go back a few 
years, so they may have changed some--suggest, for example, 
that out of the 12 or 15 percent minority population in this 
country, when it comes to arrest for drug crimes, it is 35 
percent. When it comes to incarceration for drug crimes, it is 
60 plus percent minorities who are being incarcerated.
    How do you view--and I know you cannot address any specific 
case, but how do you view this issue in terms of your 
responsibility and if you wish to step out a little further, 
and my responsibility on the legislative end of it, when it 
comes to dealing with establishing or in some cases restoring a 
sense of fairness in our system of justice when it comes to 
minorities?
    Let me start with Mr. Schroeder. This applies as well to 
Illinois as well as Texas, so I am not singling out any State. 
It applies to all of us.
    Mr. Schroeder. Thank you, Senator, for the question. I 
think you do it one case at a time. I think you approach every 
case impartially and with an open mind, and you seek to do 
justice in each case. I think that it is very important that 
the way you run your courtroom makes clear to everyone that it 
is a place where everyone is going to be treated fairly and 
that people who come into the courtroom without regard to their 
race or their gender or their socioeconomic status or their 
station in life, that they are going to get a fair shake.
    Senator Durbin. Let me take this to another level. You may 
find it incredible that Senator Cruz and I would find agreement 
on a basic issue, but we have on the Smarter Sentencing Act. In 
that situation, we are trying to make sure that the mandatory 
minimum sentencing under the Federal law gives judges more 
discretion in a specific category of cases, drug offenses that 
don't involve guns, gangs, or violence, to give more latitude.
    One of the things that inspired me to move in this 
direction was the judiciary, judges who came back after 
applying our laws to their case and saying, ``Senator, this is 
not fair. It is not just.'' They stepped out of their role as 
strictly judges and became, at least, commentators on the state 
of law.
    So I ask you do you think that is part of your 
responsibility?
    Mr. Schroeder. Senator, thank you for the question. I think 
it is your responsibility to understand the impact that any 
individual result or judgment has in a case, and I think it is 
important for you to try to treat everyone fairly and 
impartially and obviously, I do not have great experience in 
the criminal field. I have handled 15 to 20 cases over the 
years. I did a fair amount of work in criminal cases when I was 
a law clerk and I certainly understand the importance of 
uniformity in sentencing and I think that is an important goal 
to be achieved.
    Senator Durbin. Mr. Pitman, you have had to live with these 
laws that we've passed here and apply them as a prosecutor. 
What are your thoughts on this issue of race and justice?
    Mr. Pitman. Well beyond just that, Senator, I will say that 
as you know, the Attorney General has proposed and implemented 
the Smart on Crime Initiatives within the Department. And one 
of the goals of that is to make sure that we are reserving--the 
very serious sanctions made available to us under statutes 
passed by Congress are reserved for the most serious offenders 
and to scale the tools that we have at our disposal to make 
sure that the law is enforced.
    Getting back to your question about the profile of some of 
the defendants that we deal with, one of my practices as a 
magistrate judge was before I went out onto the bench, I 
considered the fact that even if it was a very--what to me was 
a very routine and perhaps not something that was going to be 
on the front page of the paper, for the person standing there, 
it was the most important thing in the world and that it 
deserved my full attention. So I would make every effort not 
only to go out and be fair and impartial and to treat everyone 
the same regardless of their background, but to make sure that 
they felt that way and they got the message from me that I was 
taking their problem and their situation seriously. And I will 
continue to do that if confirmed.
    Senator Durbin. Judge Alonso, as a criminal judge in Cook 
County, you have faced many criminal defendants. You know what 
I am talking about on this issue of race.
    Judge Alonso. Yes, I do, Senator. I think that in essence, 
we always have this tension between wanting uniformity across 
the system in sentencing, but we also want to make sure that 
the judge has discretion.
    So at the system, we look at all of these cases and we try 
to figure out what category they fit in, but it really is an 
impossible task. Every defendant in a criminal case is 
different. Every case is different factually. So it is always a 
challenge to remember that, to treat every case as the most 
important case and not one of 400 cases, but just that case.
    I think it is important to have discretion and to trust the 
judge to exercise that discretion within certain limits, and it 
appears to me that the recent adjustment in the Federal 
sentencing provisions lands in a good place, starting with the 
guidelines, but moving from there and giving more discretion to 
the judges. I think it is important.
    I think also that we see across the system more and more 
talk about restorative justice and helping courts, or problem 
solving courts. And when we have sentencing provisions that 
don't allow us to take advantage of that in a situation where 
we can identify a specific problem and we actually think we can 
make a difference in this person's life, both to help the 
defendant and to help us as a society so that there is not 
recidivism, which is what we are trying to stop. I think it is 
important to make sure that judge's hands are not handcuffed 
and that the judge does have discretion in those situations to 
give the appropriate sentence.
    Senator Durbin. Mr. Blakey, I recently attended an 
Innocence Project dinner in Springfield, Illinois where 
formerly incarcerated people spoke. They had been found to be 
innocent and had been incarcerated for long periods of time, 
unjustly.
    One of them, African American, said, ``They sat me down and 
they said if you don't plead to this crime, here is what you 
face. You face the possibility of a mandatory sentence and it 
is stiff, and you are going to face a jury that may not be 
friendly to an African American defendant. So do you want to 
roll the dice here, or would you rather plead to a lesser 
offense and get this behind you?'' And the man said, ``I have 
no choice.'' He went to jail for something he had not done.
    Have you run into this? What are your thoughts on this 
circumstance?
    Mr. Blakey. Senator, that is a horrific story and a failure 
of the role of a prosecutor to be a fair administrator of the 
law and to do so impartially. I also think it is important in a 
prosecutorial role to be vigilant with respect to race 
disparity and the way the criminal justice system is run. In 
fact, as a Federal prosecutor and as a State prosecutor, I have 
devoted much time to police corruption and civil rights 
violations and have done a lot of work in that area. And it is 
important to do that and to assess each case on an individual 
basis and have a fresh look and an individual assessment so 
that each individual is only charged with what they have done 
and that as a prosecutor that your just sentence is the only 
sentence that is going to be adhered to.
    Senator Durbin. Mr. Mazzant, your thoughts on this issue?
    Judge Mazzant. Thank you, Senator. As to the issue of 
mandatory minimums, naturally in my purview as a judge, I am 
not sure that is part of my job, but if this august body would 
change the mandatory minimums, I will enforce the law as you 
all change that, if that is changed.
    As to how I deal with anyone who comes before the court, as 
a magistrate judge, I do handle the pretrial criminal. So I do 
all of the initial appearances and the motions prior to trial. 
I make sure--and my goal would be that anyone who comes before 
the court, by the time they are finished, they feel they got a 
fair treatment before the court. And that is what I would try 
to do.
    Senator Durbin. I thank you very much. I know there is no 
easy answer to the questions I have been asking. It is a 
challenge to us on this side as it is to those on your side of 
the table to restore that sense of justice and feeling of 
fairness in our courts across America. We have a lot of work to 
do.
    I thank you all for being here today, thank your families 
for attending at this hearing of the Senate Judiciary 
Committee.
    The record is going to remain open for a week. There may be 
some additional information asked of you or questions sent your 
way and I hope you can respond in a timely fashion.
    I thank you all for being here today and the Committee 
stands adjourned.
    [Whereupon, at 10:52 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



NOMINATIONS OF ALLISON DALE BURROUGHS, NOMINEE TO BE DISTRICT JUDGE FOR 
THE DISTRICT OF MASSACHUSETTS; JEANNE E. DAVIDSON, NOMINEE TO BE JUDGE 
  OF THE U.S. COURT OF INTERNATIONAL TRADE; HAYWOOD STIRLING GILLIAM, 
    JR., NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF 
           CALIFORNIA; AND AMIT PRIYAVADAN MEHTA, NOMINEE TO
                   BE DISTRICT JUDGE FOR THE DISTRICT
                              OF COLUMBIA

                              ----------                              


                      TUESDAY, SEPTEMBER 17, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:05 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Dianne 
Feinstein, presiding.
    Present: Senators Grassley and Lee.

          OPENING STATEMENT OF HON. DIANNE FEINSTEIN,
          A U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. I would like to welcome everyone to this 
nomination hearing. There are two big announcements today.
    Today is the 227th anniversary of the signing of the 
Constitution in the United States in 1778. So it is a big day.
    It is also a big day for this Committee because the Ranking 
Member on my right--it is his birthday.
    [Applause.]
    Senator Grassley. Thank you.
    Senator Feinstein. And the rumor mill has told me a story. 
On every birthday he runs to the Capitol, and it is six miles. 
This morning--and I am not going to tell you his age because we 
are very close.
    [Laughter.]
    Senator Feinstein. Well, I am not going to tell you his 
age, but he ran the six miles. That is what really deserves a 
round of applause.
    [Applause.]
    Senator Feinstein. Now we will get down to business. I am 
pleased to welcome Eleanor Holmes Norton from the House of 
Representatives to be with us today.
    Let me make just a brief introduction and then call upon 
the Ranking Member. We have today three nominees to the United 
States District Courts, one of them from California, as well as 
a nominee to the Court of International Trade.
    So I would like to ask Senator Grassley to make his opening 
statement and then we will go to those introducing the nominees 
and then we will go to the nominees.
    Senator Grassley, happy birthday.
    Senator Grassley. Thank you very much. Elizabeth Warren 
sent me a letter yesterday.
    Senator Feinstein. Oh, she knew. Maybe you are the source 
of the rumor. Who knows?
    [Laughter.]
    Senator Grassley. Anyway. I have no opening statement. We 
do not believe, at this point, any of these nominees are 
controversial. You never know until you get through all of 
these hearings and go through all of the papers and stuff, but 
right now it looks like no controversy. That is why I do not 
have an opening statement.
    Senator Feinstein. Okay. We will go to introductory 
statements, and if I may if you are not in a rush, I would like 
to recognize the presence of the Delegate from the District of 
Columbia. As I said to her privately, we welcome you here. I 
have followed your career for many, many years and it is a very 
impressive one.
    So welcome, and we would be very happy to hear your 
statement.

         PRESENTATION OF AMIT PRIYAVADAN MEHTA, NOMINEE
  TO BE DISTRICT JUDGE FOR THE DISTRICT OF COLUMBIA, BY HON. 
              ELEANOR HOLMES NORTON, A DELEGATE IN
             CONGRESS FROM THE DISTRICT OF COLUMBIA

    Delegate Norton. Thank you very much, Madam Chair. I will 
say that following is mutual.
    Many happy returns, Senator Grassley.
    I have been told to keep it very short. I agree with 
Senator Grassley. There should be nothing controversial about, 
certainly, my nominee.
    I will say only that Amit Mehta will be the first person of 
Asian Pacific background in the U.S. District Court for the 
District of Columbia, and boy what does he come with, magna cum 
laude graduate from Georgetown, Phi Beta Kappa, University of 
Virginia Law School, Order of the Coif, clerked on the Ninth 
Circuit, experienced now as a partner in a major law firm, and 
before that criminal experience at the renowned public defender 
service of the District of Columbia. He has got it all. It is a 
whole package.
    I strongly recommend him and we would be very proud to have 
a young able judge like this on our U.S. District Court for the 
District of Columbia.
    Senator Feinstein. Thank you very much.
    Now I would like to recognize the distinguished senator 
from Massachusetts, Senator Warren.

        PRESENTATION OF ALLISON DALE BURROUGHS, NOMINEE
TO BE DISTRICT JUDGE FOR THE DISTRICT OF MASSACHUSETTS, BY HON. 
      ELIZABETH WARREN, A U.S. SENATOR FROM THE STATE OF 
                         MASSACHUSETTS

    Senator Warren. Thank you very much, Madam Chairman, and 
happy birthday Ranking Member. Delightful to be here today.
    Thank you for holding this hearing allowing me to be here 
today. I am very pleased to have the chance to introduce 
Allison Burroughs who has been nominated to fill a judicial 
vacancy on the District Court for the District of 
Massachusetts.
    Ms. Burroughs is joined today by her husband, Mike; her 
children, Jake and Harry; her sister, Carol; her niece, Haley; 
and her mother, Rima. I know they are all tremendously proud to 
have the chance to share this moment with her.
    Now Ms. Burroughs' nomination came after she was 
recommended for this position by the Advisory Committee on 
Massachusetts Judicial Nominations. The Advisory Committee is 
composed of distinguished members of the Massachusetts legal 
community, including prominent academics and litigators and is 
chaired by former Massachusetts District Court Judge, Nancy 
Gertner. The Committee's recommendation reflects the broad 
consensus of the Massachusetts legal community that she will be 
a superlative member of the Federal bench.
    Ms. Burroughs attended Middlebury College in Vermont and 
law school at the University of Pennsylvania where she 
graduated in 1988. She immediately began a 1-year clerkship 
with Judge Norma Shapiro on the United States District Court in 
Philadelphia beginning what has been a long and distinguished 
career in public service.
    After her clerkship, Ms. Burroughs went to the United 
States Attorney's Office, first in Philadelphia and then later 
back home in Boston.
    For 16 years, Ms. Burroughs has worked as a Federal 
Prosecutor and her record is one of significance, success and 
extraordinary integrity. Allison won three Director's Awards 
for superior performance as an Assistant U.S. Attorney.
    I want you to hear this one--her first in 1994 recognized 
her role in the investigation and prosecution of the Junior 
Black Mafia, one of the most ubiquitous and dangerous 
Philadelphia gangs in the 1980s and 1990s, a group believed to 
have killed more than 40 people.
    Her most recent 2004 Superior Performance Award recognized 
another kind of work that Allison did, her critical role in the 
Massachusetts U.S. Attorney's Office investigating and 
prosecuting individuals who perpetrated a complex offshore tax 
avoidance money laundering scheme.
    Since 2005, Ms. Burroughs has worked as partner and a 
defense lawyer in private practice in the firm of Nutter 
McClennen and Fish. Her extensive experience both as a 
prosecutor and a defense attorney gives Ms. Burroughs 
significant insight into both law and the practicalities of our 
adversarial system that will serve her well on the bench.
    She has also devoted significant time to civic and 
charitable work. She was founding member of Womanade, an 
organization that focuses on philanthropy to support programs 
that positively impact women and girls in the Boston area. She 
is also the former president of the board and a longtime 
trustee of Agassiz Village, a nonprofit camp for physically 
challenged and economically disadvantaged inner-city kids. 
Agassiz Village was founded by Allison's grandfather, a Russian 
immigrant who sold newspapers on a Boston street corner before 
putting himself through law school.
    Ms. Burroughs has received numerous honors recognizing her 
skills as a litigator, including multiple listings as a 
Massachusetts Super Lawyer and is a superlatively talented 
lawyer with a demonstrated commitment to public service.
    I am proud to have recommended her to President Obama. I 
look forward to her full approval by the Committee and her 
swift confirmation by the full Senate.
    Thank you very much for letting me be here today.
    Senator Feinstein. Thank you very much, Senator. If you 
would like to be excused--I meant to say that to Delegate 
Norton--but you are certainly able to. Thank you for taking the 
time.
    Senator Warren. Thank you, Madam Chairman.
    Senator Feinstein. I appreciate it.
    It is my pleasure to introduce Haywood Gilliam, Jr. He is a 
nominee I recommended to the President after my bipartisan 
screening committee--similar to what Senator Warren has in 
Massachusetts--gave him a strong recommendation.
    Mr. Gilliam's wife, Estela; daughter, Maya--nine years old, 
whose favorite author is a man by the name of Jackson. I told 
her I am from the ``Little House on the Prarie'' school, so I 
did not recognize him. He does mythology; right, Maya? So she 
is here.
    Mr. Gilliam's father is here. He was trained as a thoracic 
surgeon in the United States Army. I would like to thank him 
for his years of service on active duty as well as reserve 
duty.
    This is a distinguished practitioner at a major firm, 
Covington and Burling, and a former Federal Prosecutor. He 
graduated magnum cum laude from Yale in 1991, earned his law 
degree from Stanford in 1994, was an article editor for the 
Stanford Law Review.
    After graduation, he clerked for Judge Thelton Henderson of 
the Northern District of California. From 1995 to 1998, he 
worked as an associate at the law firm of McCutchen, Doyle, 
Brown and Enersen. He joined the United States Attorney's 
Office in San Francisco in 1999, serving until 2006. He was the 
Chief of the Securities Fraud Section from 2005 to 2009.
    He has handled several securities fraud cases as well as 
cases involving immigration fraud, health care fraud, 
commodities price manipulation and narcotics possession with 
intent to distribute.
    In 2006, he rejoined his prior firm, at that time called 
Bingham McCutchen as a partner. In 2009, he joined Covington 
and Burling where he has been a partner for the last 5 years.
    He is focused on corporate and individual clients facing 
investigation by the Federal Government. At Covington and 
Burling, he is the vice chair of the firm's white collar 
defense and investigations practice group which includes dozens 
of partners.
    So you can see he has had both sides of the question with 
respect to securities fraud, both as a U.S. Attorney and as a 
corporate defense lawyer. He has served on the District Court's 
Merit Selection Panel for magistrate judges, chairing it 2013, 
on the Stanford Law School Board of visitors from 2010 to 2012, 
and he serves on the board of Vincent Academy, a charter school 
in west Oakland.
    So for his family, you should know that your father and 
your son has an outstanding record of academic success, legal 
practice, and community involvement. I am confident he will 
serve with distinction as a district court judge.
    Let me add just a few words about Jeanne Davidson who has 
been nominated to serve on the Court of International Trade. 
This court has exclusive jurisdiction to hear important cases 
arising out of international trade, such as customs disputes.
    Jeanne Davidson, the nominee, earned her bachelors from UC 
Berkeley and her law degree from New York University of Law. 
For three decades, she has served in the Civil Division of the 
Department of Justice where she has held a variety of 
supervisory positions, some involving international trade. The 
American Bar has given her the highest rating of well-
qualified.
    So now I would like to call forward the nominees, have them 
sworn in, and give them a chance to do very brief opening 
statements and then we will begin our questions.
    If you would raise your right hand, please and affirm the 
oath as I tell it. I do solemnly swear that I will support the 
Constitution of the United States in all cases, so help me God.
    Ms. Burroughs. I do.
    Ms. Davidson. I do.
    Mr. Gilliam. I do.
    Mr. Mehta. I do.
    Senator Feinstein. Thank you very much. The normal rule is 
5-minute rounds. So I would like to begin with Ms. Burroughs 
and go right down the line with a brief opening statement and 
then ask Senator Grassley to be the first one to ask questions.
    Please, if you will. You need your mic on.
    Ms. Burroughs. I do not think you can be a judge unless you 
are smart enough to figure out how to turn it on.
    [Laughter.]
    Senator Feinstein. Sometimes that means you are just very 
brilliant.

  STATEMENT OF ALLISON DALE BURROUGHS, NOMINEE TO BE DISTRICT 
            JUDGE FOR THE DISTRICT OF MASSACHUSETTS

    Ms. Burroughs. I would like to thank the Committee for 
inviting me here today. Senator Grassley, happy birthday. I was 
gratified to hear you say we were noncontroversial and I hope 
none of us do anything today to change your mind about that.
    I would also like to thank Senator Warren for her kind and 
generous introduction as well as Senator Markey for his 
support. I would be remiss not to also thank the Massachusetts 
Selection Committee and its Chair, Nancy Gertner, who I know 
worked very hard to get this right. And of course, my thanks to 
President Obama for his nomination.
    I am very fortunate to have many friends here today and 
others watching on the webcast, including my colleagues at 
Nutter McClennen and Fish. Friends in this room who were 
generous enough to make the trip from Boston include Amy 
Holman, Al Ulatom, Mark Kmetz, John Levy, and Mathilda Willey.
    My wonderful family is also here or watching and I am 
grateful for their support as well. There is one family member, 
though, that is not here and is very much on my mind today. My 
father died this summer during the selection process and 
shortly before I was nominated.
    There is no one that wanted this for me more than he did, 
and no one that would have gotten more of a kick out of being 
here today than he would have. I miss him and very much wish he 
could be here, but I am fortunate to have my fabulous mother, 
Rima Burroughs here, my sister, Carol, her husband, Brett, and 
their children Eli, Tessie, and Topher are watching or at least 
will be when school is out for the day.
    My niece Haley, who is a high school senior is here today. 
I know she is hoping to get an interesting college essay out of 
her experience in Washington. My brother, her father, Warren 
Burroughs, Jr., her mother, Cindy, and her sister Linsey, along 
with my other siblings, Cathy and John are also watching today. 
John's wife, Anita as well as my Aunt Jean and her family.
    My husband, Mike Leslie's family is also watching, his 
parents, John and Susan, his brothers, Bill and John and their 
families. And last, but certainly not least, I want to mention 
my husband Mike Leslie and our boys Jake and Harry who are 
sitting in back and are 4-years old.
    My husband is also a lawyer and I know he too feels very 
honored and humbled to be a part of this proceeding today. I 
think that Jake and Harry are enjoying their first trip to 
Washington, although Harry did tell me he was looking forward 
to my concert today and I can only hope he is not disappointed.
    [Laughter.]
    Ms. Burroughs. I thank you, again, for your consideration 
and I look forward to your questions.
    Senator Feinstein. Thank you very much.
    [The biographical information of Ms. Burrough appears as a 
submission for the record.]
    Senator Feinstein. Ms. Davidson.

  STATEMENT OF JEANNE E. DAVIDSON, NOMINEE TO BE JUDGE OF THE 
               U.S. COURT OF INTERNATIONAL TRADE

    Ms. Davidson. Good morning. Thank you, Senator Feinstein, 
for chairing this hearing and for your kind introduction. I 
would like to thank the Committee for holding this hearing and 
I would like to thank President Obama for the honor of 
nominating me to the Court of International Trade. I also would 
like to wish Senator Grassley happy birthday.
    I would like to thank all of my friends and family who 
could not be here today, but are watching on the webcast in 
California, New York, Maryland, and in the District all in one 
fell swoop. Thanks to all of you for your support.
    With one exception, I will limit my introductions to people 
who are here today. The exception is my parents. They were 
California natives and members of the greatest generation. My 
father served in World War II, in the Navy, and then was in the 
Naval Reserve until he retired. My mother was a public school 
teacher in California.
    With me today are two family members who flew all the way 
from California, my son, my greatest achievement in life, 
Jeremy Davidson Hoffman. He obtained his bachelor's and 
master's degree in computer science at Stanford University and 
is now a senior software engineer at Google.
    My brother, Dr. John Michael Davidson, served in the Army 
during the Vietnam war era and then went on to obtain a 
doctorate in physics and for 35 years worked at the Jet 
Propulsion Laboratory in Pasadena where I can only describe his 
job as rocket scientist.
    My sister, Mary Elizabeth Davidson, is here today with her 
husband Matthew Seiden. They met almost 45 years ago when they 
were both serving in the Peace Corp in Brazil. Their son, Gabe 
Seiden, is here today. He also served in the Peace Corp many 
years later in Guatemala and is the proud father of Zev and 
Jacob Seiden.
    I would like to recognize some family friends, Virginia Lum 
and Dr. Robert Young, originally from the State of Hawaii, but 
now from the State of Maryland. My colleagues from the Federal 
Circuit Bar Association, of which I am privileged to serve as 
the president, currently, are here today and I welcome their 
support.
    Finally, I would like to recognize the lawyers from the 
Department of Justice, many of them are here today, with whom I 
have had the privilege of serving for almost 30 years and who 
are extraordinary, dedicated, talented group of lawyers. I 
would particularly like to mention those from the National 
Court Section in the Office of Foreign Litigation.
    Thank you very much.
    Senator Feinstein. Thank you. You have pretty much filled 
up the place.
    [The biographical information of Ms. Davidson appears as a 
submission for the record.]
    Senator Feinstein. Mr. Gilliam.

   STATEMENT OF HAYWOOD STIRLING GILLIAM, JR., NOMINEE TO BE 
            DISTRICT JUDGE FOR THE NORTHERN DISTRICT
                         OF CALIFORNIA

    Mr. Gilliam. Thank you, Senator Feinstein. Thank you very 
much for your kind introduction and for recommending me to 
President Obama. I deeply appreciate the trust that you have 
placed in me.
    Thank you to Ranking Member Grassley and the rest of the 
Committee for holding today's hearing. I am honored to be here 
today to answer your questions.
    I thank President Obama for placing his trust in me by 
nominating me to this very important position.
    I would like to acknowledge my family who have traveled 
here today. My wife, Estela Lopez Gilliam--Stella and I met 
when we were young lawyers speaking to a class of tenth 
graders--who were reading ``To Kill a Mocking Bird''--about our 
jobs as lawyers. I can tell the young lawyers here always take 
the chance to do volunteer work when you can because it paid 
off for me. We celebrated our 12th anniversary this past June.
    My daughter, Maya Pearl, is here as well. Maya is a fourth 
grader at Hillcrest Elementary School in Oakland, California. 
She is very excited about the opportunity to visit the 
Smithsonian this week and we are hoping that her teachers give 
her extra study credit for that.
    My parents, Dr. Haywood Gilliam, Sr. and Audrey Gilliam 
have traveled from Alameda, California to join me today. I 
appreciate their support.
    I would like to also acknowledge four people who are not 
here, but who are very much here with me in spirit, and that is 
my grandparents John and Pearl Bryant and Marvin and Emma 
Gilliam. I know that if they were here, they would be very 
proud. I can say with certainty without the love and support 
and encouragement of my family members, there would be no way 
that I could be sitting here before you as a nominee to the 
Federal bench.
    Finally, I would like to recognize those who are joining us 
today on the webcast, especially the folks in California who 
got up very early to view these proceedings. Thank you to 
everyone watching on the webcast.
    Thank you, again, and I very much appreciate the 
opportunity to be here before you today.
    Senator Feinstein. Thank you, Mr. Gilliam.
    [The biographical information of Mr. Gilliam appears as a 
submission for the record.]
    Senator Feinstein. Mr. Mehta.

          STATEMENT OF AMIT PRIYAVADAN MEHTA, NOMINEE
       TO BE DISTRICT JUDGE FOR THE DISTRICT OF COLUMBIA

    Mr. Mehta. Thank you, Senator Feinstein. I would also like 
to thank the Chairman and the Ranking Member for convening the 
meeting today. I wish Senator Grassley a happy birthday. I 
would also like to thank Senator Feinstein for chairing the 
meeting.
    I would like to thank Congresswoman Norton for her kind 
introductory remarks as well as her faith in me, and nominating 
me to the President as well as her nominations commission for 
considering my application and recommending me to the 
Congresswoman. I would also like to thank President Obama for 
the honor and the privilege of the nomination. I thank him very 
much for the trust that he has placed in me.
    I would like to acknowledge my family and friends who are 
here today, starting with my wife and best friend, Caroline 
Mehta. We have been married for 9 years and without her, I 
certainly would not be here today.
    My daughter, Devan, who is 7 years old--she is a second-
grader at John Eaton Elementary here in Washington, DC. She is 
here and this is her first true civics lesson. My son Kian, who 
is 3 years old is here as well.
    My Parents, Priyavadan and Ragini Mehta are here from 
Baltimore, Maryland. My parents came to this country 42 years 
ago. My presence here today is a testament to them as well as 
the opportunities that this country has afforded my family.
    My sister, Sheetal Prasad, is here from New York city. I 
would like to acknowledge my in-laws, my wife's parents, 
Charles and Susan Judge, who could not be here today. My wife 
is fond of saying that I have already met the most important 
Judges in my life, and she is right about that.
    My dear friends are here, my law partners and dear friends 
William Taylor, Roger Zuckerman, and Susan Taylor. I would also 
like to acknowledge my friends Marybeth Rathman, Ephraim Leavy 
and Michael Zamor who are here as well.
    Last, I would like to thank Este Berwinkle for being here. 
Ms. Berwinkle is staying with our family from South Africa for 
the year and this is a nice way for her to see how the American 
judicial and Congressional process work.
    Thank you.
    Senator Feinstein. Thank you very much.
    [The biographical information of Mr. Mehta appears as a 
submission for the record.]
    Senator Feinstein. We will now go to questions. I will ask 
our distinguished Ranking Member, Senator Grassley, to begin.
    Senator Grassley. Well, thank you. I usually only ask one 
or two questions of each of you here orally. I submit questions 
for response in writing and sometimes when those come back, we 
ask for further elaboration on some of the questions. So do not 
be surprised if you get questions in writing and maybe even 
followups.
    I am going to start with Ms. Burroughs. I have three or 
four questions of which I am only going to ask one, but they 
deal with the issue of the death penalty.
    In the case of the Boston bomber, you wrote that a decision 
to forego the death penalty ``would have required political 
courage''--just a short explanation of what you meant by the 
statement.
    Ms. Burroughs. Thank you for giving me an opoortunity to 
address that topic. The marathon bombing case was, obviously, a 
high profile case in Boston. It struck at an iconic event in 
both Boston and in the United States. There is obviously a lot 
of strong emotion over what should happen to the defendant in 
that case.
    Because it was so high profile and the crime so atrocious, 
including the taking of a life of a small child, to forego the 
death penalty in that case, I believe, would have required 
political courage of a different sort than, perhaps in a more 
run of a mill, gang kind of case.
    Senator Grassley. And just a short answer to this question. 
Do you hold any personal views regarding the death penalty that 
would make you unable to impose it if the law required it?
    Ms. Burroughs. No, Senator, I do not.
    Senator Grassley. All right. Now I am going to go on to Ms. 
Davidson.
    In a 2004 panel you said, ``your credibility before the 
court is your most important asset as a lawyer.'' If confirmed, 
how would you evaluate the credibility of lawyers who appear 
before you?
    Ms. Davidson. Thank you, Senator. If confirmed, I would 
prepare very carefully and very thoroughly for every case that 
came before me, and I would evaluate the credibility of the 
lawyers based upon their candor in making their arguments to 
the court, whether their arguments were well-based in the 
record and in the law, in the Constitution, the statutes, the 
decisions of the Supreme Court.
    Senator Grassley. Thank you.
    Mr. Gilliam, you would not know this, but I spend a lot of 
time considering points of view of whistleblowers. So you have 
had an interest in that. In your capacity as a partner of a law 
firm, you represented clients during governmental 
investigations. You have written extensively on how to conduct 
investigations and how to deal with whistleblowers. What is 
your view in the role of whistleblowers?
    Mr. Gilliam. Thank you, Senator. Whistleblowers have a very 
important role under the law. A number of statutes that I deal 
with routinely--for example, the False Claims Act, have 
expressed provisions that provide for whistleblowing. I think 
that those statutes are clear. They set out the proper process 
by which whistleblowers can bring claims and by which those 
claims would be adjudicated.
    Were I to have the honor of being confirmed as a District 
Court Judge, I would follow those precedents in individual 
cases.
    Senator Grassley. Mr. Mehta, you have, I think, had almost 
an entire career as a defense attorney. If confirmed, you will 
have to make a transition from an advocate to impartial judge. 
I am not questioning whether you can do that, but what do you 
expect will be the most difficult of that transition if it is 
difficult for you? It may not be. I am not assuming it would 
be, but I want to know how you would make that transition.
    Mr. Mehta. Senator, I think every part of the transition 
will be difficult. The position of Federal judge is one that is 
extraordinarily demanding and obviously quite different than 
that of the role of the advocate. It is critically important 
for any Federal judge to be impartial, come to any case with an 
open mind and particularly in criminal cases it is critically 
important to be an open-mind with respect to both the 
Government's position as well as that of the defendant. I can 
assure you, Senator, that I will approach the position in that 
way, impartially, fairly, and honestly.
    Senator Grassley. Thank you, nominees. Thank you, Madam 
Chairman.
    Senator Feinstein. Thank you very much, Senator Grassley. 
You have asked the death penalty question I was going to ask of 
Ms. Burroughs.
    I would like to ask each person to quickly go down the line 
and say why they believe they are--Senator Grassley must excuse 
himself. There is a Committee hearing, of this Committee, on 
the subject of net neutrality. So I will just perk along.
    I would like each one of you to tell us why your believe 
that you are well-qualified for the job, how you will handle 
your caseload which can be very high, and how you feel about 
being a District Court Judge and what that means. This is not 
an appellate court. It is a district court.
    So perhaps I can begin. Mr. Gilliam, you are for our 
district court.
    Mr. Gilliam. Thank you, Senator Feinstein. I believe that 
in my career I have had a broad range of experience that will 
prepare me well if I am fortunate enough to be confirmed as a 
district judge.
    I began my career as a law clerk for a Federal judge in San 
Francisco and had the opportunity to see the judicial system 
from that perspective and have the experience of neutrally 
evaluating cases and recommending an outcome, not as an 
advocate, but as a neutral assistant to the judge.
    I have represented parties in criminal and civil matters in 
my career. I have served as a prosecutor for a number of years, 
and I have also handled matters as a defense counsel on behalf 
of clients of different types.
    I think all of those experiences have prepared me well to 
evaluate and understand the perspectives of the different 
participants in the system and reach decisions that are based 
solely on the controlling law and the fact of any given case. 
The role of the district court is to follow precedent, apply it 
to the case before me, and reach a decision that is based on 
nothing other than those considerations. I think that my career 
has well-prepared me to do that.
    In terms of caseload management, briefly, I think that is 
critical for a district judge. In our district, it is very 
common for judges to issue case management orders very early in 
the case, set out a reasonable schedule and expect the parties 
to adhere to it unless there is a good reason to depart from 
it, and especially to urge the parties to meet and confer early 
in the process to narrow the issues and work out whatever 
issues they possible can without the intervention of the court.
    I think that that is a powerful tool for managing a 
caseload and a docket. I would intend to implement those sorts 
of procedures were I to be a district judge.
    Senator Feinstein. Thank you very much.
    Ms. Burroughs.
    Ms. Burroughs. Thank you, Senator. Like Mr. Gilliam, I have 
had a varied career in the law. I have been a law clerk, a 
prosecutor, and now a defense lawyer in a major law firm.
    I love being in the courtroom. I love trial work. I am 
firmly committed to the principles of our judicial system, that 
cases are decided by neutral, impartial open-minded, fair 
judges. I am very interested in being a part of that process.
    I am very thrilled about being a district court judge for 
the reasons I just stated. I love being in a courtroom. I love 
the woof and warp of it. I love the human drama in there.
    The Judge that I clerked for, Judge Norma Shapiro once told 
me that jurors got it right 95 percent of the time. I think it 
is more like 98 percent of the time. I think that is 
unbelievable, and I think about the challenge of getting 12 of 
my friends to agree to anything, much less a room full of 
strangers agreeing to something. So I think that our system of 
justice is really amazing and I am very excited about being a 
part of the institution that can continue those very wonderful 
traditions.
    In terms of case management, I would also mange my docket 
proactively. I am a believer that justice delayed is, in fact, 
justice denied. I would try and move my docket along as quickly 
as possible, consistent with fairness and making sure that 
everybody has an adequate chance to be heard on all of the 
issues.
    Senator Feinstein. Thank you very much.
    Mr. Mehta.
    Mr. Mehta. Thank you, Senator. I too have been fortunate to 
have had a varied career. I have served both in the public 
sector and worked in the private sector as a criminal defense 
attorney. I have also had the opportunity to have served--to be 
an advocate in civil cases, both on the plaintiff side and on 
the defense side. I have also been fortunate enough to do some 
appellate work, and I also have clerked.
    I think those experiences provide a strong foundation for 
the challenges that will lie ahead as a Federal district judge 
if I am so fortunate to be confirmed.
    In terms of the caseload question, like my fellow nominees, 
I would take that, obviously, quite seriously. It is critically 
important that a Federal judge at the district court level move 
cases along. It is critically important that judges come in day 
after day and commit themselves to the hard work of making 
decisions so that the parties before them and the public have 
the confidence that the judicial process is working and working 
efficiently.
    I too look forward, if I am so honored to be confirmed, to 
be part of the institution. It would be no greater honor in my 
career than to serve the people of the District of Columbia in 
that capacity.
    Senator Feinstein. Thank you very much. Let me just ask you 
one question. Now you have been a criminal defense lawyer for--
now that is a critical role, obviously, but for a long time. Do 
you feel you can look with an open mind at the facts on both 
sides?
    Mr. Mehta. I do, Senator Feinstein. I recognize that my 
role as an advocate on behalf of defendants is a very different 
role than the one I would play as a jurist.
    A jurist must be impartial, must be fair, and open-minded 
to all the parties in every kind of case that comes before him 
or her. Certainly in criminal cases I would do that. The 
government has a very strong interest on behalf of the people 
in any courtroom in any criminal case. I would give that 
interest as much due consideration as that of the defendant.
    Senator Feinstein. Thank you very much.
    Ms. Burroughs. Oh wait. We did that. Sorry, Ms. Davidson.
    Ms. Davidson. Yes. Thank you, Senator.
    Senator Feinstein. For the court. The court you are going 
to be serving on is a little bit different. Perhaps, you would 
tell us what you anticipate and how you would handle it.
    Ms. Davidson. Yes. Well many of the considerations are the 
same, so the question applies almost equally to the Court of 
International Trade.
    I am qualified to be a judge in that court because I am 
extremely familiar with international trade law as a result of 
my practice over many years. I am qualified to be a judge 
because I have been both in private practice and at the 
Department of Justice. I have appeared before numerous judges 
personally, both at the trial and the appellate levels. So I am 
very comfortable in the courtroom and I know what the 
transition will be like to move to the other side of the bench 
and to assume the very different role as a judge.
    I also have worked with bar associations throughout my 
whole career where often I am one of the very few government 
lawyers in the bar association and I have listened carefully to 
the concerns of private counsel and found that often our 
underlying interests are not all that different. And at the 
Department of Justice a large part of my role as a supervisor 
is evaluating the Government's arguments and critiquing them 
and serving as a moot court judge for younger lawyers who are 
going to court. So I am very familiar with questioning the 
Government's arguments.
    In terms of caseload, I know from my practice and from my 
work with the private bar how important it is to have an 
expedited review system for courts to resolve cases promptly in 
the commercial world, in the criminal world, in every aspect of 
the law. I would be very conscious of that.
    I think I could bring to the Court of International Trade 
some new ideas for case management and technology that I have 
gained through my work in other courts. As a trial court judge, 
I would view my role in addition to the role of every judge of 
being fair, impartial, objective--I also would view my job as 
making sure that the record was fully developed, cognizant that 
the case might go up on appeal. So I would want to be sure that 
I completely understood the arguments that the parties were 
making and the issues that were raised and that the record was 
complete and clear in case the court went up on appeal.
    Finally, as a national court, the Court of International 
Trade has jurisdiction over the entire country, and I would be 
cognizant that it is not just a court that sits in New York and 
decides cases in New York, but must look throughout the 
country. I am familiar with that role because I also work in 
other national courts, the Court of Federal Claims and the 
Court of Appeals for the Federal Circuit.
    So the national courts have a different role than the 
district courts. I would be very cognizant of that 
responsibility to look throughout the United States and not 
just within the courtroom in New York.
    Thank you.
    Senator Feinstein. Thank you.
    I think as Senator Grassley has said, this is not a 
controversial panel. It is a well-qualified panel of 
individuals who have sufficient background, history, 
commitment, and particularly in the law. I want people to know 
that this is a relatively short hearing as these things go, but 
that is not to say that you each have not been scrupulously 
evaluated by staff who go through volumes of paper. Even the 
slightest little thing can be brought to our attention. I think 
the statements you made are really cognizant of the roles that 
you will go into and very well handled.
    So I am just going to say we will do our best to get this 
before the full Committee as soon as possible, and hopefully 
confirmed also as soon as possible. So thank you everybody, 
families, everyone for coming.
    I would like to just announce that the record will be held 
open for 1 week. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 10:46 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




NOMINATIONS OF HON. JOAN MARIE AZRACK, NOMINEE TO BE DISTRICT JUDGE FOR
                   THE EASTERN DISTRICT OF NEW YORK;
                   LORETTA COPELAND BIGGS, NOMINEE TO
BE DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF NORTH CAROLINA; ELIZABETH 
  K. DILLON, NOMINEE TO BE DISTRICT JUDGE FOR THE WESTERN DISTRICT OF 
  VIRGINIA; AND MICHAEL P. BOTTICELLI, NOMINEE TO BE THE DIRECTOR OF 
                      NATIONAL DRUG CONTROL POLICY

                              ----------                              


                      THURSDAY, NOVEMBER 13, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 12:21 p.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Mazie Hirono, 
presiding.
    Present: Senator Grassley.

            OPENING STATEMENT OF HON. MAZIE HIRONO,
            A U.S. SENATOR FROM THE STATE OF HAWAII

    Senator Hirono. The hearing of the Judiciary Committee will 
now come to order. I do apologize to our nominees and Senator 
Burr, Senator Grassley and others for this delay. I thank you 
very much for your patience.
    Senator Burr, we can start with you. I will forgo my 
opening statement.
    [The prepared statement of Senator Hirono appears as a 
submission for the record.]

PRESENTATION OF LORETTA COPELAND BIGGS, NOMINEE TO BE DISTRICT 
   JUDGE FOR THE MIDDLE DISTRICT OF NORTH CAROLINA, BY HON. 
 RICHARD BURR, A U.S. SENATOR FROM THE STATE OF NORTH CAROLINA

    Senator Burr. Chairman Hirono, thank you very much and let 
me just thank the Committee for holding this hearing with these 
nominees.
    Madam Chairman, I am here to support and to voice a strong 
support for Judge Loretta Biggs. She is a North Carolinian with 
the professional integrity and legal experience that makes her 
an outstanding candidate to serve on the Federal bench. I feel 
confident that the community will come to the same conclusion 
after reviewing all of the documentation about this exceptional 
nominee.
    Not only is she exceptional from the standpoint of her 
service on the bench and in law, she has been active in her 
community and I know her active role has made the Piedmont 
Triad of North Carolina a much better place to live. Countless 
others have benefited from her wealth of legal knowledge. She 
has also served as an adjunct professor at Wake Forest 
University Law School.
    In this regard, I find it reassuring to know her legal 
knowledge merged with the academic genius usually attributed to 
Demon Deacons. Without doubt, North Carolina is better off 
because of this.
    I would like to highlight, very quickly, a few points of 
Judge Biggs' resume which I believe signal a unique and highly 
accomplished career and make her an excellent candidate for the 
Federal bench.
    She served as a Federal and State prosecutor. She is 
admitted to practice in all North Carolina courts, the Supreme 
Court, the U.S. Court of Appeals and the U.S. District Courts. 
She has significant experience in both public and private 
practice, from the general counsel's office of a fortune 500 
company to the Assistant D.A. position in my home county of, 
Forsyth County.
    She began her service as a judge in 1987 when she was 
appointed to the 21st Judicial District Bench in North 
Carolina. She served in the U.S. Attorney's Office for the 
Middle District of North Carolina where she coordinated crime 
prevention efforts. While there she helped develop the model 
for Juvenile Crime Prevention Councils that are currently being 
used statewide by the North Carolina Department of Safety to 
reduce and prevent juvenile crime.
    In 2001, she was appointed to serve on the North Carolina 
Court of Appeals. In addition to her professional achievements, 
she has also received numerous awards for her service and 
commitment to the community. These include the YMCA Public 
Leadership Award, the Visionworks Humanitarian Award, the Dream 
Catchers Award, the Tar Heel Girl Scouts Council, the Community 
Service Award, Family Services of Forsyth County, the Strong 
and Smart and Bold Award, Salvation Army Girl's Club, Woman of 
the Year in the Winston-Salem Chronicle and Best Choice Center 
Wall of Fame.
    Madam Chairman, let me reiterate my support for Loretta 
Biggs as a nominee for the Federal bench. I believe she has the 
necessary experience, the temperament and the judgment required 
for the bench, as well as the character that we all look for in 
judicial nominees.
    I believe this Committee will agree with me that Loretta 
Biggs is well qualified to serve on the Federal bench. But let 
me assure you and those Members who are not here today, this is 
a fine woman. This is a woman that we can be proud of, a woman 
that will not only perform in a professional manner, but she 
will represent the decision of this President and of this 
Congress in her nomination in a very distinctful way.
    I thank the Chair.
    Senator Hirono. Thank you Senator Burr.
    Senator Hagan, we will give you a moment to settle in and 
then please proceed with your testimony in support of Ms. 
Biggs.

PRESENTATION OF LORETTA COPELAND BIGGS, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE MIDDLE DISTRICT OF NORTH CAROLINA, BY HON. KAY 
     HAGAN, A U.S. SENATOR FROM THE STATE OF NORTH CAROLINA

    Senator Hagan. Thank you Madam Chairman. I also want to 
thank all of the Members of the Judiciary Committee and I am 
greatly honored to be able to join you today with my colleague, 
Senator Burr, to introduce an exceptional candidate for the 
U.S. District for the Middle District of North Carolina, Ms. 
Loretta Biggs.
    I appreciate the opportunity to be here to speak about Ms. 
Biggs exemplary experience and contributions to public service 
during her 35 years of service as an Appellate Court and a 
State Trial Court Judge, a Federal and State Prosecutor and a 
successful attorney in private practice.
    I first want to recognize Ms. Biggs' daughter, Jahmela; her 
brother, William Miller; her friend, Larry Biggs; and former 
North Carolina Supreme Court Justice, Patricia Timmons-Goodson. 
I am delighted that you were all able to join us today. I also 
want to recognize Ms. Biggs' mother, the late Ernestine Miller, 
whom she credits for every achievement in her life and who is 
with us in spirit today.
    I also, at this time, want to thank Judge James Beaty, Jr., 
who assumed senior status in the Middle District earlier this 
year. Judge Beaty served honorably for 20 years in the Middle 
District, including 6 years as Chief Judge. I am so grateful 
for his dedicated service to our State.
    Loretta Biggs is currently a partner at the law firm of 
Allman, Spry, Davis, Leggett and Crumpler in Winston-Salem, 
North Carolina where her practice includes litigation, 
mediation, arbitration of complex family law cases and 
interstate and international child abduction cases. She was 
formerly the managing partner at Davis, Harwell and Biggs where 
her specialties included family law, complex civil litigation, 
and appellate practice. She is a North Carolina Board Certified 
Family Law Specialist and Board Certified Family Law Financial 
mediator and a Fellow in the American Academy of Matrimonial 
Lawyers, one of the highest honors a family law litigator can 
claim.
    Ms. Biggs was previously an Associate Judge on the North 
Carolina Court of Appeals where she authored over 175 opinions 
and participated in approximately 300 additional opinions, 
including criminal and civil substantive law and procedural law 
issues. Prior to her appointment to the Court of Appeals, Ms. 
Biggs was Executive Assistant, U.S. Attorney for the Middle 
District of North Carolina where she oversaw the planning and 
coordination of all crime prevention and reduction efforts of 
the U.S. Attorney's Office and developed the model for the 
Juvenile Crime Prevention Councils that are now operating in 
all 100 counties in North Carolina.
    She was recognized for her work at the U.S. Attorney's 
Office in 1999 as one of only three recipients in the country 
of the United States Attorney General's Award for Outstanding 
Contributions to Community Partnerships for Public Safety. From 
1987 to 1999, Ms. Biggs served as a District Court Judge for 
the 21st Judicial District of North Carolina, having first been 
appointed by the Governor and subsequently winning two local 
elections to retain her seat.
    She got her start in public service as an Assistant 
District Attorney in Forsyth County and began her legal career 
at the in-house counsel's office at Coca-Cola. She also served 
as an adjunct professor at my alma mater, Wake Forest 
University School of Law, where she taught at the legal clinic 
and began a mentoring program for black law students at the 
school.
    Ms. Biggs has been recognized among the Best Lawyers in 
America since 2006 and the Super Lawyers since 2007. In 2007, 
she was also one of the Top 50 Women Lawyers in the Super 
Lawyers publication.
    In addition to her professional honors, she has also been 
recognized for her outstanding community service, having earned 
such recognitions as the YMCA Public Leadership Award, the 
Visionworks Humanitarian Award, the Community Service Award 
from the Family Services of Forsyth County and the Salvation 
Army Girls Club Strong, Smart and Bold Award.
    Ms. Biggs graduated with Honors from Spelman College in 
1976 with a Bachelor of Arts Degree. She went on to earn her 
Juris Doctorate from Howard University School of Law in 1979, 
where she was fifth in her class and the Deputy Article Editor 
for the Howard University Law Journal.
    I believe that Ms. Biggs' experience, acuity, leadership 
and deep roots in her community make her an exemplary choice 
for the Middle District of North Carolina. If appointed, she 
will be the only African American to sit as a U.S. District 
Judge in Winston-Salem. Her extensive legal experience and 
dedication to public service demonstrate her imminent 
qualifications for service on the Federal bench and I am 
confident that she will make an outstanding judge for the 
Middle District.
    I thank you, Madam Chair, for holding this hearing today 
and allowing me to speak to Ms. Loretta Biggs' abilities. I 
wholeheartedly support the nomination of Loretta Biggs and look 
forward to working with you to confirm her to this position as 
swiftly as possible. Thank you, Madam Chair.
    Senator Hirono. Thank you, Senator Hagan and thank you 
Senator Burr. I realize that you have other business to attend 
to, so thank you very much for your presence here.
    We do have other Senators who are inadvertently delayed, 
but I did want to mention that Senator Gillibrand was going to 
introduce Judge Azrack, Senator Warner to introduce Ms. Dillon, 
Senator Kaine to also introduce Ms. Dillon and Senator Markey 
to introduce Mr. Botticelli. Their testimony in support of 
these nominees will be entered into the record of this hearing.
    [The prepared statements of Senator Gillibrand, Senator 
Warner, Senator Kaine, and Senator Markey appear as submissions 
for the record.]
    Senator Hirono. At this time I would like to ask the table 
to be cleared so that our nominees can come to the table. While 
this is happening, I would like to introduce my statement for 
the record--but to say that all of our judicial nominees are 
filling emergency positions, so this hearing is very important.
    [The prepared statement of Senator Hirono appears as a 
submission for the record.]
    Senator Hirono. Before we get to our nominees, I would like 
to turn now to Ranking Member Grassley for his opening 
statement, if any.

         OPENING STATEMENT OF HON. CHARLES E. GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. For the same reason that you put your 
statement in the record, I am going to put my statement in the 
record.
    I would announce for the judicial nominees, I am not going 
to ask questions to be answered today, I am going to issue 
statements for the record that I would like to have answered in 
writing, but when we get around to asking questions, I would 
like to have a short discussion with the Drug Czar.
    [The prepared statement of Ranking Member Grassley appears 
as a submission for the record.]
    Senator Hirono. Certainly.
    Will all of our nominees come to the table. I would like 
you all to rise and raise your right hand for the oath. Do you 
solemnly swear that the testimony you are about to give the 
Committee will be the truth, the whole truth and nothing but 
the truth so help you God?
    Judge Azrack. I do.
    Ms. Biggs. I do.
    Ms. Dillon. I do.
    Mr. Botticelli. I do.
    Senator Hirono. Thank you. Let the record show that the 
nominees have answered in the affirmative.
    We will start with opening statements from all of our 
nominees. We will start with you, Judge Azrack.

  STATEMENT OF HON. JOAN MARIE AZRACK, NOMINEE TO BE DISTRICT 
           JUDGE FOR THE EASTERN DISTRICT OF NEW YORK

    Judge Azrack. Thank you, Senator. I want to thank you and 
the Committee for convening this hearing today and for inviting 
me to attend. I want to thank Senator Gillibrand for 
recommending me to the President and of course, I want to thank 
President Obama for nominating me for this position.
    I would like to take a moment and introduce my family who 
is here. I would not be here without their love and support.
    My husband, William Ballaine, is here. My daughters, Katie 
Ballaine and Annie Ballaine are here. Katie Ballaine is 23. She 
is a 2013 graduate of Yale University now working in New York 
City for NBC. Annie came down from New Haven last night. She is 
a junior at Yale.
    My first cousin, Patricia Loeb is here--who is like a 
sister to me. A dear friend, Kerry Docherty, and former law 
clerk is also here. My intrepid and loyal three law clerks came 
down very early this morning, so chambers is closed today--Bob 
Terranova, Charlotte Petilla and Diana Srebenik. I want to 
thank them all for being here with me.
    My brother is watching on the webcast as are many members 
of my Eastern District Court family and I thank them for their 
support as well.
    Before I close, I want to acknowledge two very important 
people in my life, my parents, John Azrack and Theresa Wieland 
Azrack, who died some years ago. I know they are with me in 
spirit and I know they are up there somewhere bursting with 
pride at me sitting here before a U.S. Senate Committee being 
considered for a Federal judgship.
    Thank you.
    Senator Hirono. Thank you and welcome to all of your 
family.
    [The biographical information of Judge Azrack appears as a 
submission for the record.]
    Senator Hirono. Ms. Biggs.

        STATEMENT OF LORETTA COPELAND BIGGS, NOMINEE TO
          BE DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF
                         NORTH CAROLINA

    Ms. Biggs. Thank you, Senator. First of all, I do want to 
thank you for--I know, on a very busy day--conducting this 
hearing. To our Ranking Member of the Judiciary Committee, 
Senator Grassley, I thank you, sir, for being here.
    I do want to thank both of my home-state Senators, both 
Senator Hagan and Senator Burr. I am humbled by their 
undaunting support of me through this nomination and now 
through this confirmation process.
    I do want to thank the President for the nomination. I am 
very proud to be here. I do have with me here today my 
daughter, Jahmela, who took the redeye from Los Angeles to 
ensure that she would be here with her mom, seated here.
    I have my brother here, William Miller, from Atlanta, 
Georgia. And I have my dear, good friend, Larry Biggs, here 
along with me.
    We also have the Special Assistant to Former North Carolina 
Supreme Court Justice, Justice Timmons-Goodson, Cheryl Cozart 
who is here in support of me as well as Justice Timmons-
Goodson.
    By webcast, I would like to acknowledge my son, Jolonnie; 
his wife, Kelsie; and our 1-year-old grandson, Jamison Walter. 
I would also like to acknowledge my sister and brother-in-law 
in Atlanta, Antoinette Sewell and her family. I would like to 
acknowledge my brother and sister-in-law--my brother, retired 
Air Force in Moreno Valley, California, as well as his three 
children, my nieces and nephews. I would like to acknowledge my 
in-laws, Louise and Earl Newsom from Williamston, North 
Carolina, who have been very active in my life.
    I would like to thank all of my friends, all of my 
colleagues, all of my family for supporting me throughout my 
career. As Senator Hagan mentioned, I would do a special thank 
you to my mother, Ernestine Lucretia Miller who is no longer 
with us, but has been my guardian angel throughout my life and 
continues to be here in her spirit.
    Thank you so very much for this opportunity.
    [The biographical information of Ms. Biggs appears as a 
submission for the record.]
    Senator Hirono. Thank you very much.
    And now Ms. Dillon.

STATEMENT OF ELIZABETH K. DILLON, NOMINEE TO BE DISTRICT JUDGE 
              FOR THE WESTERN DISTRICT OF VIRGINIA

    Ms. Dillon. Thank you Ranking Senator Grassley, presiding 
Senator Hirono, and this Committee for allowing me to be here 
today. I would like to convey my thanks to Senators Warner and 
Kaine for their recommendation to the President and of course, 
I am deeply honored by the nomination by President Obama and 
thank him.
    I would also like to introduce and give thanks beyond 
measure to my family who are here with me today, my husband, 
Barry Dillon; my daughters, Katie and Anne. Katie is a graduate 
student studying speech and language pathology. Anne is a 
junior in college studying human relations and anthropology.
    Also with me today I have family friends Ben Strickler and 
Steward Hundley who are both young men interested in government 
and happen to be studying and working in Washington, DC, right 
now.
    Watching by webcast today I have my proud parents, Kay 
Shields, my mother; Ted Hillman and his wife, Bernie--my 
father. My parents instilled in me a love of learning that 
continues to benefit me today.
    I would like to thank my mother-in-law for all of her 
support, Lucille Dillon, in spirit, my father-in-law, A.W. 
Dillon. Also my sisters, Joannie Dunn and Laura Heitzman who 
helped me hone my verbal skills at an early age. My sisters-in-
law Debbie Dillon and Janet McClain and all of their families. 
Also everyone at my law firm and my many special friends that 
are supporting me today.
    Thank you.
    [The biographical information of Ms. Dillon appears as a 
submission for the record.]
    Senator Hirono. Welcome to all of you.
    Mr. Botticelli, you have a different role here. You are not 
a judicial nominee and you have submitted your testimony, so 
perhaps you would like to take 5 minutes or so to give your 
testimony to this Committee.

STATEMENT OF MICHAEL P. BOTTICELLI, NOMINEE TO BE THE DIRECTOR 
                OF NATIONAL DRUG CONTROL POLICY

    Mr. Botticelli. Great. For the sake of dialogue and 
discussion, I will submit my formal statement for the record to 
really preserve time.
    But I do want to thank you, as Chair of this Committee, and 
Ranking Member Grassley. It is an incredible honor for me to be 
in front of you today.
    I would also like to acknowledge Senator Markey for his 
willingness to introduce me and for his support. I have the 
privilege when he was in the House to be one of his 
constituents when I lived outside of Boston, so I have a long 
association with him.
    I really want to thank President Obama for nominating me 
for this position. It is a tremendous honor for me to be here.
    I would like to introduce and acknowledge my husband, David 
Wells for his love and encouragement. I know that I would not 
be here today without his love and support.
    Watching by way of webcast, my two older brothers who are 
instrumental in guiding me to this point and continue to 
provide support and guidance for me. I am also joined here 
today by many friends and colleagues that I have known for a 
long time who have given me a tremendous amount of guidance and 
support not only during my time at ONDCP, but also my time at 
the State level.
    I would also like to recognize my parents who are no longer 
here. My parents were first-generation Italian immigrants and 
to have their son nominated to this position, I cannot thank 
them enough for all of the hard work and sacrifice that they 
gave me and my brothers to be in this position where we are 
today.
    And finally, I would like to thank my staff at ONDCP, many 
of whom are here today. I really have the privilege and honor 
of representing their fine work as we think about protecting 
the American people from drug use.
    Thank you.
    [The biographical information and prepared statement of Mr. 
Botticelli appear as submissions for the record.]
    Senator Hirono. Thank you very much. And just for purposes 
of clarification, Mr. Botticelli, you are being nominated to be 
the Director of the National Drug Control Policy.
    At this point, the Committee will open for 5 minutes of 
questioning by myself and the Ranking Member Grassley.
    As our judicial nominees have come all this way, I know 
that Senator Grassley will be submitting his questions for the 
record for your response for the record. I would just like to 
ask each of you, very briefly, to tell us a little bit about 
what you see as the challenges in serving as a Federal District 
Court Judge. We realized that you have diverse experiences as 
judges and in the private sector, but if each of you could just 
briefly share with this Committee what you see as the 
challenges in serving as a Federal Court Judge.
    Let us start with you.
    Judge Azrack. Thank you, Senator.
    The challenges I see are the challenges I have been 
confronting for 23 years as a United States Magistrate Judge in 
the Eastern District of New York. That is making sure that 
everyone who comes into my courtroom is respected, their views 
are heard, they are given their day in court, they feel as if 
our justice system is working for them and that I hear their 
case and base my decision on existing law, applying the 
existing law to the facts and give them a ruling promptly and 
with clarity so that when they leave my courtroom, they 
understand--even if they may not have prevailed--they 
understand why I did what I did and they leave with some 
enduring confidence in our system.
    Ms. Biggs. The challenges that I would see are ensuring 
that every person that comes before the court understands that 
the court is a vehicle through which they can ensure that their 
claims are heard, that their claims are heard by a 
knowledgeable judge, that their claims are handled in an 
efficient way, that they have a full opportunity to have those 
claims heard in a very fair and impartial way.
    It is critical that each person that comes into our Federal 
courthouse believes that the court will hear them, allow their 
attorneys to try their cases in the best way that they know how 
and that there will be a deliberate and speedy trial.
    Thank you.
    Ms. Dillon. Thank you, Senator, for that question.
    The challenge I see is to honor and have the outmost 
respect for the tremendous responsibility placed on a person in 
the position of district court judge. From that respect flows 
all of those other things, the respect for the rule of law, the 
respect for the litigants and the respect for the lawyers 
appearing in that court, a sense of fairness and impartiality 
and that transition from advocate to judge to fair and 
impartial decisionmaker. I pledge to this Committee that I have 
that utmost respect and recognize the tremendous responsibility 
placed on that position.
    Also, with the Western District of Virginia, I will tell 
you that I have a special place in my heart for that court. It 
is a welcoming court.
    We recently lost Judge Turk, one of the senior judges, at 
age 91 years old who was very active in the court and has 
taught every litigant and every lawyer who has appeared before 
him that with responsibility comes the duty to be fair and 
impartial and kind. I would hope that I could do the same. 
Thank you.
    Senator Hirono. Thank you. I have a question for Mr. 
Botticelli. We know that opioid addiction is on the rise and 
the result is an increase in overdoses, death and costs.
    I cosponsored the TREAT Act, which I believe you are 
familiar with, earlier this year which would expand the number 
of patients that a provider can treat for opioid addiction as 
well as the type of providers eligible for providing this kind 
of treatment. Can you comment on how you think the TREAT Act 
fits into a national plan for dealing with opioid addiction?
    Mr. Botticelli. Senator, as you indicated, we have been 
significantly concerned about the dramatic increase in opioid 
use, both prescription drugs and heroin use throughout the 
country and as you indicated, the devastating impact that that 
has had on mortality.
    The recent yearly data show that 110 people are dying every 
day of a drug-related overdose. These are deaths that are 
entirely preventable.
    In 2011, our office sponsored a prescription drug abuse 
plan that we are making significant progress on. One of those 
principles I think is very much in keeping with the intent of 
your legislation, that we have effective medications that we 
know are highly effective, not only in treating opioid use 
disorders, but preventing mortality. So we are very supportive 
of looking at ways that we can work with our Federal agencies 
and State and locals to increase access to these lifesaving 
medications.
    Part of what I started as Deputy Director was convening a 
treatment workgroup of all of our Federal partners to look at 
not only how could we increase access to treatment that we know 
is effective, but especially focused on increasing access to 
all of the FDA approved medications for opioid use disorder. We 
would be happy to work with you to look at how we can continue 
to focus our efforts on making sure that people with those 
disorders have access to those lifesaving medications.
    Senator Hirono. My 5 minutes are up.
    Senator Grassley, would you like to proceed?
    Senator Grassley. Thank you. Just let me explain to our 
judicial nominees so you do not think you are less important. 
Normally, I would be asking questions orally and I am not today 
because we got started so late. It is neither one of our 
faults. As you probably know, it was the caucuses for the 
Democrat and Republican parties that help us up.
    So I am going to just ask of Mr. Botticelli. You have been 
a leading voice against legalization of recreational marijuana. 
First of all, I would thank you for that. Could you explain why 
you are against legalization and tell us what the latest 
scientific studies have shown about the effects of marijuana 
use on young people's brains, a potential for facilitating 
addiction.
    Mr. Botticelli. Thank you Ranking Member Grassley. As you 
indicated, we have been opposed to legalization efforts and 
that is a direct result of the abundant scientific evidence we 
have about the public health harms and public safety harms 
around marijuana.
    We know that about 1 in 11 people or 9 percent become 
dependent on marijuana when they use it on a regular basis. And 
we know that the earlier people use and the earlier youth use, 
the more likelihood they have in developing a more significant 
substance use disorder.
    While we have made progress in many of the areas on 
reducing drug use in the United States, marijuana is, 
unfortunately, not one of them. We have more youth in the 
United States now who are smoking marijuana than they are 
tobacco. That is directly tied to the lack of risk that youth 
have in the United States of using marijuana and that is 
directly tied to the messages that youth are getting both in 
terms of legalization efforts as well as medical marijuana, 
that these substances are not harmful.
    Part of what I do when I go across the country is talk to 
youth about the messages that they hear. We have made 
considerable progress on tobacco and youth will tell you that 
it is harmful.
    But I am really disturbed by what they say to me about 
marijuana and they see it as benign and in some cases they see 
it as healthful because of a medical community prescribing this 
medication. So we have significant issues all ready with 
marijuana and we are really concerned about the 
commercialization of marijuana and what that is going to mean 
in terms of increased access to youth.
    Senator Grassley. Some have said that legalization of 
marijuana should only be a first step, that the use of other 
drugs like cocaine, heroin, and methamphetamine should be 
legalized. Now you have publically described--and you have got 
to be complimented for doing this--your courageous story, 
personal story of recovering from addiction.
    Are you in favor of legalizing the use of these drugs and 
what would legalizing use of these drugs do to public health, 
especially those at risk of addiction?
    Mr. Botticelli. We do not support that and I do not support 
that. As you indicated, Senator, I only have to look back at my 
own story around addiction and recovery to know the devastating 
impact that alcohol and other drugs have on people.
    I know that that is entirely preventable and I know that 
legalization is not the solution to our problems. We also know 
that many of the folks who are promoting legalization of 
marijuana see this as a first step and they want to legalize 
other drugs which we think is entirely antithetical to a public 
health approach. We want to make sure that we are preventing 
drug use from happening. We want to make sure we have safe 
communities that are free from these substances to improve the 
probability that our youth are going to make healthier choices 
in their lives.
    So I do not see legalization of marijuana or any other 
drugs as enhancing that public health approach and have 
significant concerns about the availability of these substances 
and what it says to the youth of our country.
    Senator Grassley. We have a situation where a person by the 
name of Vinita Gupta has been nominated as Acting Assistant 
Attorney General for Civil Rights. In addition to being in 
favor of marijuana legalization, she has written that ``states 
should decriminalize simple possession of all drugs'' with 
emphasis upon ``all drugs.''
    So based on your recent statement, I assume it is your view 
that Ms. Gupta's recommendation would be disastrous for public 
health if adopted.
    Mr. Botticelli. I cannot speak to exactly what her 
positions are, other than what I have read in the paper. I will 
tell you that this Administration remains firmly opposed to 
legalization and other liberalization of our drug policies. 
Again, that is not coming from an ideological perspective. It 
is really based on the robust scientific evidence that we have.
    Senator Grassley. Sure. My last question, and it follows 
on----
    Senator Hirono. Feel free to.
    Senator Grassley. Thank you. It follows on with your 
discussion of opioids, but a little bit different.
    The Administration's most recent prescription drug 
prevention plan, issued April 2011, the plan focused on 
prescription opioids. One of its goals was to reduce deaths 
associated with these drugs. Since then we have seen an 
epidemic of prescription drug abuse develop even in my State 
and in many parts of the United States.
    So my last question is, do you think the plan needs to be 
revised in any way in light of the alarming developments over 
the last 3 years and if so, would you plan to issue one?
    Mr. Botticelli. Let me share with you what I think has been 
some significant progress that we have made since we 
implemented many of the strategies of that plan.
    So most recent data suggests that the misuse of 
prescription pain medication among youth and young adults has 
been dropping and for the first time in 15 years, we actually 
saw a decrease in prescription drug-related mortality. So we 
know and we are cautiously optimistic that our plan is taking 
root and taking hold.
    One of the things that has been a significant concern for 
us--although a smaller level--has been the dramatic increase 
that we have seen in heroin and heroin use rates. To really 
reflect that, our most recent 2014 National Drug Control 
Strategy talks about our continued efforts, both in terms of 
demand reduction and supply reduction efforts specifically 
focused on the heroin issue. We know that many newer users to 
heroin actually start their opioid addiction on prescription 
pain medication. So we know we have to keep up our efforts on 
that front and augment our plan to really focus on the heroin 
issues that we are now seeing taking hold across the country.
    Senator Grassley. I thank you for your questions. And I 
thank the other people for answering them in writing.
    Senator Hirono. Thank you Senator Grassley. I will submit a 
few more questions for Mr. Botticelli, if you can respond for 
the record.
    I would also like to enter into the record numerous letters 
of support for Mr. Botticelli.
    [The letters appear as submissions for the record.]
    Senator Hirono. I would like to thank all of you and your 
families and friends for being here and being available to 
respond to our Committee.
    The record will remain open for 1 week for submission of 
written questions for the witnesses and for the submission of 
other materials.
    With that, this hearing is adjourned.
    [Whereupon, at 12:56 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



   NOMINATIONS OF MICHELLE K. LEE, NOMINEE TO BE UNDER SECRETARY OF 
COMMERCE FOR INTELLECTUAL PROPERTY AND DIRECTOR OF THE U.S. PATENT AND 
     TRADEMARK OFFICE, AND DANIEL HENRY MARTI, NOMINEE TO BE U.S. 
INTELLECTUAL PROPERTY ENFORCEMENT COORDINATOR, EXECUTIVE OFFICE OF THE 
                               PRESIDENT

                              ----------                              


                      WEDNESDAY, DECEMBER 10, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:11 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman, presiding.
    Present: Senators Durbin, Whitehouse, Klobuchar, Franken, 
Blumenthal, Hirona, Grassley and Hatch.

          OPENING STATEMENT OF HON. PATRICK J. LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Chairman Leahy. I was just apologizing to Senator Hatch for 
being late because of a family semi-emergency. I am so glad 
Michelle Lee and Daniel Marti are here today. These are 
nominees to two very important leadership positions. They are 
charged with supporting our Nation's creators and artists and 
inventors.
    Those are categories that showcase the best of America and 
they also need to be protected. I take a strong personal 
interest in these positions, both as the leader of this 
Committee and as the Senator from Vermont who is Dean of the 
Senate. These are important things.
    In our State of Vermont, we have a diverse range of 
artists, writers and creators. We are a State of only 625,000 
people, but every year it ranks among the most innovative 
States, has the highest patents per capita of any State. We 
know firsthand that creators and innovators are the lifeblood 
of this country. They fuel our imagination. They create jobs. 
They contribute billions of dollars to the economy.
    It is probably the fact that we have had such creators in 
Vermont that we have always--even during the recent recession, 
some call it depression, we maintain the lowest unemployment 
rate in the country. The two nominations we are considering 
today play a central role promoting this important work.
    Intellectual Property Enforcement Coordinator or IPEC was 
created by legislation I authored in 2008. It was reported by 
this Committee and then in a Senate, sometimes called divisive, 
it passed the Senate unanimously. Our objective was to take a 
comprehensive approach to intellectual property enforcement 
within the U.S. Government.
    IPEC plays a valuable role bringing together members of the 
Internet ecosystem, addresses a complex problem of online IP 
theft. Earlier this year, Senator Grassley and I sent a letter 
to President Obama urging him to nominate someone to fill this 
position. It had been vacant for over a year. Today's 
confirmation hearing is an important step in filling the 
vacancy following the calls of Senator Grassley and myself.
    Compared to the IPEC, the position of the Director of the 
Patent and Trademark Office is not so new. Our Nation's first 
official charged with granting patents was Thomas Jefferson. 
That is kind of a proud lineage to be in--when he was Secretary 
of State.
    By serving America's innovators, the PTO helps Vermonters 
and citizens across the country build their businesses. Three 
years ago Congress came together to pass the Leahy-Smith 
America Invents Act. It is the greatest transformation to our 
patent system in over 60 years, not my words, but the words of 
most who followed it.
    The Committee worked for 6 years to pass that landmark 
legislation bringing our patent system into the 21st century. 
AIA sought to improve patent quality, creating new and more 
efficient administrative proceedings at the PTO and I want to 
hear more from Mrs. Lee about these and other efforts as the 
PTO continues its work delivering the promise of AIA.
    I am pleased in the funding bill released last night, we 
were able to assure that the PTO receives a budget of $3.46 
billion, reflecting the amount that it collects for user-fees 
that are strengthened by the Leahy-Smith bill. Full funding of 
PTO should remain a priority and we have to do more work to 
strengthen our patent system. I think that is something that 
Senator Hatch, Senator Grassley and I would all agree on.
    We have been working over the past 18 months to address 
misconduct by bad actors who are abusing the patent system. Let 
me state that I will work with my colleagues on both sides of 
the aisle next year to address these so-called patent trolls 
who send threatening letters to small businesses in Vermont or 
Utah or anywhere else. They tie up companies across the country 
in bad faith lawsuits. They hamper innovation and harm our 
economy. We dedicated months of committed work to make some 
bipartisan progress this year and I am told by the new 
leadership of the Committee we will continue to do that.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    I know that Senator Grassley has been delayed on an 
Agriculture matter which is important to both our States. 
Senator Hatch, did you want to make any comments?

             OPENING STATEMENT OF HON. ORRIN HATCH,
             A U.S. SENATOR FROM THE STATE OF UTAH

    Senator Hatch. Let me just say that I am pleased that these 
two nominees are here and that we are moving ahead. These are 
very important positions in our country and they are sorely in 
need of management so I am grateful to both of you for being 
willing to serve and we will have some questions for you, but 
that is par for the course.
    Thanks for being willing to serve and we appreciate the 
effort. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you. Daniel Marti is the managing 
partner of the Washington, DC, office of Kilpatrick Townsend 
and Stockton. He has spent his entire legal career specializing 
in intellectual property law, focused in trademark law. I am 
going to hear from both witnesses, but do you have members of 
your family here, Mr. Marti?
    Mr. Marti. I do.
    Chairman Leahy. So they will someday be in the Marti 
archives, that they will know who was here, would you please 
introduce them.
    Mr. Marti. Yes, with pleasure. My entire family is here, 
joining me and supporting me today on this important day. I 
have my mother and father, Enrique and Patricia Marti from 
Florida who just came in last night; my beautiful wife, Lauren; 
our two children Myles and Alyssa; my sister, Patty and her 
son; and my sister, Andrea, from Boston could not make it, but 
hopefully she is following online.
    Chairman Leahy. We have a tad bit of snow up northeast 
here.
    Mr. Marti. Yes.
    Chairman Leahy. I am hearing from a couple of my neighbors 
in Vermont.
    Michelle Lee currently serves as the Deputy Director of the 
U.S. Patent and Trademark Office. She was the first Director of 
the Silicon Valley Satellite Office to the PTO. She has served 
on the PTO's Public Patent Advisory Committee. She was Deputy 
General Counsel, head of patents strategy at a little startup 
company called Google.
    Ms. Lee, do you have members of your family here?
    Ms. Lee. I do, Senator Leahy. I have the privilege of 
having with me my husband, Christopher Shen; our 4-year-old 
daughter, Amanda Mavis; and my mother, Agnes Lee from Palo 
Alto, California.
    Chairman Leahy. Well, welcome to Washington. You must be 
awfully proud of your daughter, your wife and your mother. She 
is thinking hmm [indicating]. Our youngest was that age when I 
was sworn into the Senate. My parents were more impressed than 
he was at the time.
    [Laughter.]
    Chairman Leahy. So let me start. Who would like to go first 
with their statement? Mr. Marti, do you want to?

      STATEMENT OF DANIEL HENRY MARTI, NOMINEE TO BE U.S. 
INTELLECTUAL PROPERTY ENFORCEMENT COORDINATOR, EXECUTIVE OFFICE 
                        OF THE PRESIDENT

    Mr. Marti. Thank you Chairman Leahy, Ranking Member 
Grassley and distinguished Members of this Committee. I am 
honored to have the opportunity to be considered by this 
Committee as the President's nominee to serve as the 
Administration's Intellectual Property Enforcement Coordinator 
or IPEC. I would like to thank the President for his confidence 
in my ability to serve in this important post and I thank 
Victoria Espinel for her remarkable leadership and service 
during her time as the first IP Enforcement Coordinator.
    As I mentioned a minute ago, I am joined here and supported 
today by my entire family including my 6-year-old daughter, 
Alyssa, and 9-year-old son, Myles, who may be the only children 
in their elementary school who speak about intellectual 
property matters while swinging from the monkey bars on the 
playground. I also would like to specifically acknowledge and 
thank my beautiful wife, Lauren, for her love and support. I 
know it may be often said, but it has never been more true, I 
am a better man because Lauren is in my life.
    This opportunity to serve my country is truly humbling.
    I am a first-generation American born in Washington, DC, of 
Spanish and Chilean parents who came to this country speaking 
little English. My father, Enrique, chose to leave the seminary 
in Germany where he was studying to be a Jesuit priest so he 
could teach philosophy and theology at a university in 
Washington, DC.
    My mother, Patricia, has dedicated her life to making sure 
that my two sisters and I have the chance to follow our 
educational and professional pursuits wherever they would lead. 
Their real sacrifices have allowed me to be here before this 
distinguished Committee, and for that I am immensely grateful.
    I currently serve as a managing partner of the Washington, 
DC, office of Kilpatrick Townsend and Stockton, which has one 
of the largest IP practices of any law firm in the country. I 
have devoted the entirety of my professional practice to 
matters concerning intellectual property enforcement.
    My clients have included companies in the fields of 
technology, banking, consumer products, entertainment media and 
sports, fashion and luxury goods, hospitality and gaming, and 
food, beverage and agriculture. Through these and other client 
representations, I have developed a deep and broad view of IP 
rights and IP policy.
    If confirmed, I will work to achieve a thoughtful and 
strong intellectual property system that encourages innovation, 
creativity and fair competition based on the rule of law. An 
effective intellectual property enforcement strategy must 
consist of a comprehensive and multifaceted approach to this 
dynamic issue, one that is well-positioned to anticipate and, 
indeed, respond to the evolving nature of intellectual property 
issues.
    An intellectual property enforcement strategy should, for 
example, involve sustained coordination among Federal agencies 
and enhanced sharing of information, focused diplomatic 
efforts, including engagement with trading partners, the use of 
trade policy tools and IP related training and capacity 
building, private sector voluntary best practices, the adoption 
of technological solutions and public awareness, education and 
outreach, to name a few.
    I will work to promote our ongoing efforts to protect 
intellectual property from unlawful infringement both home and 
abroad. These efforts will involve a broad range of 
stakeholders, including Congress, Federal Agencies, the private 
sector and public interest groups.
    Each of these stakeholders and the views and positions they 
represent will be key resources for me in pursuing the goals of 
my office. America's great spirit of innovation and creativity 
has been a primary driver of our economic growth and national 
competitiveness. Intellectual property is also critical to our 
balance of trade and intellectual property-intensive industries 
represent a substantial portion of our gross domestic product 
and support millions of jobs.
    Congress and Members of this Committee, in particular, had 
the vision to create the IPEC position in order to elevate the 
coordination of IP efforts across the United States and indeed 
internationally. And if confirmed, I look forward to building 
on the success and the momentum of the office and to carry 
forward the efforts of the United States Government's economic, 
criminal and national security agencies engaged in intellectual 
property policy and enforcement.
    Thank you, again, for the opportunity to appear before you. 
I look forward to answering your questions.
    Chairman Leahy. Thank you very much. Thank you for 
mentioning your parents' journey to this country. My paternal 
grandparents came to this country also not speaking the 
language, raised six children, started a wonderful business in 
Vermont and got to see their grandson come to the U.S. Senate. 
So we are, as I often add, a Nation of immigrants and better 
for it.
    [The biographical information and prepared statement of Mr. 
Marti appear as submissions for the record.]
    Chairman Leahy. We have been joined by Senator Grassley who 
was tied up, necessarily, at the Agriculture meeting. Did you 
want to say something and then I was going to have Ms. Lee 
speak?
    Senator Grassley. No. Let her speak and then before I ask 
questions, I will do a short opening statement.
    Chairman Leahy. Well, thank you very much.
    Ms. Lee, please go ahead.

STATEMENT OF MICHELLE K. LEE, NOMINEE TO BE UNDER SECRETARY OF 
  COMMERCE FOR INTELLECTUAL PROPERTY AND DIRECTOR OF THE U.S. 
                  PATENT AND TRADEMARK OFFICE

    Ms. Lee. Thank you. Chairman Leahy, Ranking Member Grassley 
and distinguished Members of the Committee, thank you for the 
opportunity to be here before you today. I am honored and 
grateful to President Obama for nominating me for such an 
important position and to Secretary Pritzker for her past and 
ongoing support.
    With me here today, as I mentioned and without whom I would 
not be here today, are my husband, Christopher Shen; our 4-
year-old daughter, Amanda Mavis; and my mother, Agnes who 
traveled from Palo Alto, California.
    I was born and raised in the Silicon Valley, the daughter 
of an immigrant family that settled in a place that turned out 
to be one of the most innovative regions in our country, if not 
the world. My father was an electrical engineer. We spent our 
weekends and evenings tinkering, working together to fix or 
build things like a Heathkit handheld radio.
    In fact, all of the dads on the street that I grew up on 
were engineers, innovators in the truest sense of the word. It 
was not uncommon for them to work for companies founded by a 
person with a clever invention who patented that idea and who 
obtained venture capital funding to bring that technology to 
the marketplace. Some of the companies succeeded. Some of them 
did not. But for those that did, they created good jobs for 
families such as mine and in some cases, new products and 
services that revolutionized the world and the way in which we 
live.
    Seeing the process up close and personal growing up made a 
lasting impression on me. I wanted to contribute and to enable 
others to contribute to innovation. It is why I studied 
electrical engineering and computer science and later 
intellectual property law with a goal of representing 
innovative companies.
    While working at MIT's Artificial Intelligence Laboratory 
and HP's Research Labs as a computer programmer, I witnessed 
innovation at its inception. It was an exciting experience and 
one that I will never forget and that still informs my work to 
this day.
    Later as an attorney, I worked on patents and patent 
strategy for a then small company that grew into a Fortune 500 
Corporation in the span of eight short years. Along the way, we 
built the company's patent portfolio from a few handfuls of 
U.S. patents to over 10,500 patents worldwide and in the 
process, I used many of the services offered by the USPTO.
    Through my experiences as in-house corporate counsel and 
before that as a partner in a Silicon Valley law firm, I 
represented a wide range of innovators, from independent 
inventors to Fortune 500 companies. I came to understand and 
practice many areas of intellectual property law and almost 
every aspect of patent law including writing patents, asserting 
patents, defending against patent infringement and licensing, 
buying and selling patents.
    I understand and appreciate from a business perspective the 
important value and uses of intellectual property for 
innovators and to our country. During the past 3 years, through 
my service on the USPTO's Patent Public Advisory Committee, 
then as the Agency's first Silicon Valley Satellite Office 
Director and now during the past year as the Deputy Under 
Secretary and Deputy Director, I have been leading the agency 
and have worked with a broad range of stakeholders from almost 
every industry, gaining first-hand understanding of the USPTO, 
its strengths, challenges, potential and opportunities.
    I have seen and worked with the impressive talent of the 
dedicated USPTO team. It is clear to me how the USPTO's work 
benefits our Nation's innovation. I believe the USPTO must 
remain focused on reducing backlog and pendency while 
maintaining the highest level of quality of both patents and 
trademarks.
    Given the increasingly global economy, it is also 
imperative that American companies have access to effective, 
cost-efficient and strong intellectual property protection 
overseas. In my current role, I have had the privilege of 
working on many of these initiatives and if confirmed, would 
continue to work on these important goals.
    I believe that our intellectual property laws and the USPTO 
play a critical role in advancing America's technological 
competitiveness, which is so necessary for our country's 
continued economic growth. If confirmed by the Senate, I commit 
to bring to bear all of my energy, creativity and intellect to 
protect and strengthen the intellectual property system that 
has served our country so well. Thank you.
    [The biographical information and prepared statement of Ms. 
Lee appear as submissions for the record.]
    Chairman Leahy. Thank you very much, Ms. Lee. That is most 
impressive. Again, like Mr. Marti, you speak of the 
contribution made to our country by those who come to our 
country, like my grandparents or my great, great grandparents.
    Senator Grassley has joined us. Did you wish to say 
something?
    Senator Grassley. Why do you not ask your questions and 
then I will give my statement and ask my questions.
    Chairman Leahy. That would be fine. Thank you very much. 
After I ask my questions--because I have to go, also something 
involving Agriculture, I am going to leave the gavel in the 
competent hands of Senator Whitehouse.
    Ms. Lee, 3 years ago we acted to modernize the patent 
system. We passed the, as I mentioned earlier, the Leahy-Smith 
America Invents Act. Now the PTO has already received over 2000 
petitions for the AIA post-grant proceedings. The proceedings 
were designed to create an efficient forum, as you know, to 
provide a fast and cost-effective resolution for all 
challengers and patent holders.
    How is PTO implementing those provisions? What effect have 
you seen on patent quality since they were enacted?
    Ms. Lee. Thank you very much for your question, Senator 
Leahy. The PTO has been and has implemented three post-grant 
proceedings that resulted from the America Invents Act. They 
have been exceedingly popular with our stakeholders. In fact, 
in the last fiscal year, we received more than three times the 
anticipated number of filings.
    It has proven to be a cost-effective, faster method of 
resolving the issue of patent validity and the participants get 
the benefit of a panel of three technically trained 
adjudicators, jurists, deciding their cases. So they have been 
very popular.
    That said, the USPTO and if confirmed as Director, I would 
continue to work to improving those procedures. In fact, very 
recently we had an outreach to the Nation to get input on how 
we can further improve those proceedings.
    Chairman Leahy. Thank you very much. Mr. Marti, I was 
thinking of Victoria Espinel's tenure, the first IPEC, the 
office made great strides in voluntary agreements between 
stakeholders. You know from your own practice of law if you can 
find voluntary agreements, it is a lot quicker than having to 
litigate something.
    You have the important role there in addressing problems of 
counterfeiting, IP theft online. Last month, I sent a letter to 
the major credit card companies urging them to do more to 
prevent use of their payment networks for illegal activity. My 
staff has had some very good conversations with them. Visa, for 
one, has taken proactive steps with respect to a number of 
cyberlockers engaged in online piracy.
    Once the IPEC position is filled, I want them to continue 
these discussions and I would hope that IPEC would renew the 
office's work with advertising networks that are inadvertently 
sending money to illegal websites. How do you intend to build 
upon the agreements we have because it was one thing in the old 
Bonnie and Clyde days, somebody to drive up to the bank and 
steal it. Now, as you know, we are talking about billions of 
dollars that can be moved back and forth illegally. How would 
you work on this?
    Mr. Marti. Thank you, Senator. I agree that threats to the 
US IP interests are immense and growing both in size and scope. 
The private sector must be part of the solution. Intellectual 
property enforcement is a multipronged approach and voluntary 
initiatives are an important part of that approach.
    I look forward to working with the private sector to 
continue the good work of the office and continue to assess 
those voluntary initiatives from the past years and where 
improvements need to be made, certainly look forward to 
proposing some additional improvements to existing voluntary 
initiatives and looking for new ones. Particularly on the point 
that you mentioned, making sure that we can cut off funding 
from rogue sites, from infringers, from criminal enterprise, 
and part of that is going after the money through payment 
processors and also through the ad networks that also direct 
payments to these rogue websites.
    Chairman Leahy. Thank you. As you know, we can pass 
legislation, we can bring the lawsuits, but if you can work out 
the agreements, it is a lot quicker and they can usually be 
tailored to the problems we need. So I would encourage that.
    Speaking of legislation, over the past 18 months, as I 
mentioned earlier Ms. Lee, we have been trying to develop 
legislation to curb some of those people who are abusing the 
patent system. I still want to get through some patent troll 
legislation, for example.
    We have had some very positive steps. We have improved 
transparency. We have taken steps against bad faith demand 
letters. We have protected the end users. We tried to address 
frivolous lawsuits through targeted reforms.
    What do you think are the most valuable strategies we could 
use to go after the bad actors, but at the same time to protect 
the people the patent system is setup to protect, the 
legitimate patent holders and those who want to legitimately 
get a patent?
    Ms. Lee. Thank you, Senator Leahy. That is a very good 
question and it is something that I have been giving a lot of 
thought to.
    I think to strengthen the patent system we need to have 
change from really all aspects of our patent ecosystem. 
Legislation is certainly a piece of it. We are seeing a lot of 
changes now in the courts in terms of heightened discretion for 
attorneys fees and heightened definiteness requirements.
    I will say, Senator Leahy, the USPTO has taken on a lot of 
initiatives including an enhanced patent quality initiative, 
including making the patents that we issue clearer by having 
examiners putting more statements on the record so litigants 
are not litigating the same issue again years down the road. So 
through all of these efforts, I think what we need to do is we 
need to look at all of the issues, listen to our stakeholders 
and work with all of you to achieve the right balance for a 
meaningful and impactful patent reform.
    Chairman Leahy. Well, thank you. I will put the last of my 
questions in the record. I am glad that you are here and I 
think it is an important position and as Senator Grassley and I 
said in our letter to the President, it should be filled.
    [The questions of Chairman Leahy appear as a submission for 
the record.]
    Chairman Leahy. Senator Grassley.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. Thank you very much. I want to do an 
opening statement and then I will have 5 minutes of questions 
as well.
    I want to congratulate Ms. Lee and Mr. Marti for your 
nominations to serve as Director of the Patent Office and 
Intellectual Property Enforcement Coordination. You both have 
strong qualifications, a proven record in the field of IP law 
and are well respected among that IP community. Both the Patent 
and Trade Office and the Office of IPEC need strong and 
accountable leadership, so I am pleased that the President has 
submitted your nomination.
    The United States is at the forefront for innovating, 
creating and developing new technologies. Intellectual property 
supports technological advances in innovation. Intellectual 
property also plays a critical role in job creation and 
economic growth and balance of trade. In fact, the entire U.S. 
economy relies on some form or another of intellectual property 
because virtually every industry either produces or uses it.
    We need to ensure that intellectual property rights are 
protected here in the United States and abroad. Improved 
coordination between our government agencies will strengthen 
enforcement of our intellectual property laws. Enhanced 
cooperation by different industry stakeholders will also help 
protect our intellectual property. In addition, we need to be 
doing our best to utilize limited resources in the most 
efficient way possible and reduce wasteful duplication.
    The bottom line is that if we want the United States to 
remain a world leader in innovation and creativity, we must 
have a system in place that respects and enforces our IP laws. 
Consequently, now more than ever before, the Patent Office and 
the IPEC need strong capable leadership. These offices play a 
crucial role in promoting American innovation and economic 
prosperity, so there is simply too much at stake to settle for 
anything less.
    Speaking specifically to Ms. Lee, you have been nominated 
to a tough position, the continued implementation of the 
America Invents Act, clearing out the backlog of patents and 
trademark applications and putting a stop to abusive patent 
litigation are just a few of the many challenges facing that 
agency. Further, we have learned about time and attendance 
fraud, preferential hiring practice and other mismanagement 
issues at the PTO.
    These are very concerning findings and they will be 
corrected, I am sure, with your leadership. That is what I am 
hopeful about.
    Mr. Marti, you also are nominated to a position that will 
require a lot of smarts to bring together differing agendas and 
priorities. Your predecessor did a good job at working with the 
private sector to reach voluntary agreements on how to protect 
intellectual property against bad actors, but there is still 
much to be done. I am sure that you know that you have your 
work cut out for you.
    So I look forward to hearing more about how you both intend 
to lead these two important offices. I would like to have a 
paragraph here on the process. I would like to say a few words 
about what we are doing today in today's hearings.
    I think everybody in the room today, including the 
nominees, understand that there is not enough time for these 
nominations to be confirmed before we adjourn. We also know, of 
course, that when the new Congress is sworn in, this Committee 
will have new Members and those Members should have an 
opportunity to participate in a hearing. I expect that next 
year those new Members will have that opportunity.
    So I wanted to make sure that the nominees are on notice 
about that and don't have any false expectations. And what I 
just said here at the tail end is not meant to detract from 
what I said about your qualifications and the fact that we are 
glad that the President nominated you.
    Chairman Leahy. If the Senator would yield? I would hope 
that would mean that in January we would be moving on them 
because these have been vacant for some time as you and I said 
when we wrote to the President.
    Senator Grassley. Yes. I hate to be too advanced in what is 
going to happen, but I think it is a reasonable request and I 
think it is probably one that can be handled.
    Chairman Leahy. Thank you.
    Senator Grassley. I have questions. I am sorry. You got me 
all nervous there.
    [Laughter.]
    Chairman Leahy. If I got Senator Grassley nervous, it is 
the first time in his life anybody has made him nervous. And 
the fact that he and I have been friends for 30 years, I don't 
think I make him nervous.
    Senator Grassley. All right. I'm going to start with Ms. 
Lee--well, no. This will be for both of you.
    Mr. Marti, as you know, we have been working on patent 
reform legislation to deal with trolls. In your opinion, are 
they a problem? If confirmed, would you work with us on trying 
to resolve this issue and craft strong comprehensive 
legislation? Then I will have a question for Ms. Lee. Go ahead, 
Mr. Marti.
    Mr. Marti. Thank you, Senator Grassley. Abusive litigation 
is certainly a problem. I think we can all agree that a strong 
and well functioning patent system is something that is in this 
country's best interests and certainly if confirmed, I look 
forward to working with you, this Committee and with Congress 
to address abusive litigation of any sort. Thank you.
    Senator Grassley. Ms. Lee, kind of a gentle question, but 
an important one, what do you see as the most significant 
challenge facing the PTO?
    Ms. Lee. I think it is the PTO's obligation to issue the 
very best quality patents possible. I think we have taken huge 
strides in reducing our backlog and pendency. Since January 
2019, we have reduced the backlog in pendency by 20 percent 
despite on average 4 percent year-over-year increases and 
filings. So I think the next priority, the very next priority 
beyond that is making sure that we issue the very best quality 
patents and we have steps well on the way to handle that.
    Senator Grassley. Yes, and I should have asked you the same 
question that I asked Mr. Marti. Is patent troll a problem, and 
if confirmed, would you work with us on helping deal with that 
issue, possible legislation?
    Ms. Lee. Yes, absolutely. There continues to be a problem 
with abuse of patent litigation and I believe that there can 
and should be further legislative improvements and I very much 
look forward to working with all of the Members and all of our 
stakeholders to striking the right balance.
    Senator Grassley. All right. Mr. Marti, your predecessor 
made significant progress in bringing stakeholders together to 
address the problem of Internet piracy through voluntary 
initiatives. However, there is still a lot to be done. What 
voluntary initiatives would you view as most critical in 
addressing Internet piracy and let me also ask the fifth 
question at the same time, what do you see as the most 
significant challenge at IPEC?
    Mr. Marti. Yes, thank you Senator Grassley. As I previously 
mentioned, what is important and effective IP strategies, it is 
a multipronged strategy. There must be varies initiative that 
we undertake. Here the private sector must be part of the 
solution. I absolutely look forward to carrying on the good 
work of the office and believe that voluntary initiatives have 
a very important role in our fight against online piracy.
    Specifically when it comes to online initiatives, the 
office's past initiatives that target payment processors with 
the transactions, monetary transactions to rogue websites, to 
criminal enterprises is of utmost importance that we get it 
right, that it is effective. If more needs to be done, then we 
need to do that.
    Similarly, where money comes through by the ad networks, 
that is another area where voluntary initiatives have proved to 
be useful and if confirmed, I look forward to assessing those 
initiatives and seeing if additional advancement can be made.
    Senator Grassley. Ms. Lee, I get a lot of information and 
ask a lot of questions from IG reports. The IG report 
concerning time and attendance problems at the PTO stated that 
``The multiple hurdles and approval levels required to follow 
through with a time and attendance case along with senior 
management's reluctance to sustain proposed disciplinary or 
adverse action is a likely factor in the perception that the 
time and attendance abuse is overlooked and that it is 
fruitless to request any kind of records as part of an 
investigation. This leads to an erosion of supervisors 
following up with employee misconduct.''
    Do you agree with the finding of the IG report and if so, 
what specific hurdles would you work to remove as the Director 
of PTO to ensure that misconduct is appropriately addressed?
    Ms. Lee. Thank you, Senator Grassley, for allowing me to 
address your concern and to answer your question.
    Let me just say that my senior leadership team and I take 
the allegations and the findings in the report very seriously. 
We appreciate the work of the OIG and we are working closely 
with the IG's Office to discuss and implement many, if not all, 
of their recommendations.
    Although these events occurred before my arrival at the 
USPTO, know that I will take all reasonable actions to 
strengthen the operations of the PTO, curtailing abuse of time 
and attendance and strengthening the telework program.
    To give you a sense, as I understand, when these issues 
came to the attention of PTO management, they immediately took 
action to implement additional controls, policies, procedures 
and training. Upon my leadership, I asked my team to double 
down on their efforts to find ways to prevent time and 
attendance abuse. So in September, we just provided additional 
training to all patent managers on time and attendance abuse.
    I have also established to cross-agency bureaus to prevent 
abuse and intervene early and to review the entire employee 
disciplinary process for consistency in application of our 
processes and I am also pleased to report that we have recently 
engaged the National Academy of Public Administration to review 
the entire Telework Program and its controls and to suggest 
additional best practices that we can implement to make sure 
that we have a telework program that is the gold standard.
    Senator Grassley. Mr. Chairman, could I ask one more 
question, then I will quit?
    Senator Whitehouse. Of course.
    Senator Grassley. All right. A follow-up on what you just 
told me and I do not question everything you said that you have 
done already, but specifically have there been any terminations 
of PTO supervisors or other agency employees as a result of 
alleged time and attendance abuse? If so, what role did you 
play in the disciplinary process? You probably have not heard 
me say, but I have said many times, that if there is abuse of 
the nature that we are talking about here, if heads do not 
roll, nothing really changes.
    Ms. Lee. Thank you, Senator. There have been terminations. 
They occurred before my arrival at the office. However, I will 
say that if I find time and attendance abuse at the agency, we 
will take all appropriate actions and that includes anything 
from termination to suspension to letters of reprimand, 
whatever is appropriate given the circumstances.
    Senator Grassley. I will have questions for answer in 
writing. That will be the last of my questions today.
    Senator Whitehouse. All right. Thank you Senator Grassley. 
Senator Hirono.
    Senator Hirono. Thank you Mr. Chairman. I congratulate both 
of our nominees for what I hope will be your confirmation to 
these important positions.
    I do have questions for Ms. Lee. You would be the first 
woman and the first person of color to head the Patent Office 
and that is historic. You, obviously, come to this path with a 
lot of background. I noted that particularly on the issue of 
patent trolls which this Committee spent a lot of time on, it 
is a matter of listening to the stakeholders and striking the 
appropriate balance. I appreciate that kind of perspective very 
much because I think that is the challenge in addressing the 
patent troll issues, is balancing what we should do because one 
person's patent troll is another person trying to protect his 
or her patent.
    Having said that, I know that you were the Director of the 
Silicon Valley Office and there are a number of satellite 
patent offices and I presume that one of the reasons that these 
satellite offices were opened was so that the Office of PTO 
could more directly work with the applicants, people who are 
submitting their applications. What have the satellite offices 
been able to do, particularly, to support the small inventors?
    Ms. Lee. Thank you, Senator Hirono, for your question. I 
did have the pleasure of serving as the first Silicon Valley 
Satellite Office Director. To really create the vision of what 
would these satellite offices that you, Members of Congress, 
with your foresight created--and let me just say Senator, those 
are incredible offices both in terms of providing the services 
of the USPTO to our local innovation communities.
    We have small startups, small entrepreneurs who do not have 
the resources to come to Washington to interview their patent 
applications or to learn about the patent rules or to provide 
input on what the PTO does. Now with these four satellite 
offices located throughout the country in Denver, Dallas, 
Detroit and the Silicon Valley, what it means is that all of 
our innovators, large and small now have easier access to both 
the educational content that we provide. We hear their input 
more directly, they are able to examine or interview their 
cases either via video or in person and that makes a huge 
difference. That means we issue better quality patents more 
quickly. So I think there's all upside to the satellite 
offices. And I can go on and on but I will stop right there.
    Senator Hirono. As a result of these satellite offices, are 
you getting more applications from the small inventors or has 
that been pretty much a stable situation or are these offices 
really focused much more on the quality of the patent 
applicants?
    Ms. Lee. So they are just coming online so it is too soon 
to say how many more but we have a lot of education and 
outreach. So we are talking to small inventors on the ground, 
informing them and educating them about the patent process and 
the advantages of and the services that we offer. So I 
anticipate that we will be getting more, but I also anticipate 
that we will be able to issue better quality patents faster 
because they are more informed about our process. We understand 
their technology better and all of that just leads to----
    Senator Hirono. Is there any plan to open more satellite 
offices? We would like one in Hawaii.
    [Laughter.]
    Senator Hirono. As would everybody else here probably, in 
their States.
    Ms. Lee. I appreciate the question, Senator Hirono. I don't 
know of any current plans and I know we are very busily working 
to implement and open the four satellite offices of which we 
have all of them open in temporary locations and two open in a 
permanent and we are looking to open the other two permanently.
    Senator Hirono. Well, you come from a family of engineers 
and you, yourself, have a background in science and technology, 
so that is one of the ways that our country can remain 
competitive. Are there things that PTO is doing to support STEM 
education for our young people?
    Ms. Lee. Yes. Thank you, Senator Hirono, for the question. 
I care deeply about STEM education to our youngsters and the 
USPTO has a whole range of initiatives, including for example, 
I had the pleasure--and one of the most pleasurable 
opportunities I had was going down to Camp Invention which was 
an elementary school program in Alexandria, Virginia. We 
basically partner with Invent Now. We have school aged 
children, ages 12 and under, and they are basically given 
literally a pile of junk, boxes, motors, wheels and they are 
asked to create something and write their inventions down in a 
notebook and really provide a patent disclosure.
    So I think getting more women and all aspects of our 
society involved in STEM, having come from that background, is 
hugely beneficial to our country, our economy and the USPTO has 
many initiatives underway, including things like Camp Invention 
and including an effort to have a Girl Scout patch for IP and 
innovation. So I am very pleased about those efforts and I look 
forward to continuing and expanding those efforts.
    Senator Hirono. Thank you. Thank you Mr. Chairman.
    Senator Whitehouse. I now turn to Senator Hatch who is a 
distinguished leader on these intellectual property issues and 
is my Co-chair of the Antipiracy Caucus. Senator Hatch.
    Senator Hatch. Thank you so much, Mr. Chairman. I also 
appreciate your leadership in these areas.
    Ms. Lee, some have argued that 35 U.S.C.  101 which 
governs patent eligibility should be reformed for the good of 
the patent system. Could you tell me your thoughts on that 
particular issue?
    Ms. Lee. Thank you, Senator Hatch, for your question. The 
case law is undergoing a lot of change in the area of patent 
eligible subject matter. The Supreme Court has issued many 
rulings. We are in the process of interpreting those rulings 
and issuing guidance and as to whether or not a legislative 
solution is appropriate, I think we should be open to and if 
confirmed, I wouldn't be open to evaluating everything 
including legislation on that issue and others because it is 
really the totality of all of these issues that will make a 
difference I think.
    Senator Hatch. We need your help on that if it comes to 
that, but you can make a lot of internal changes that would 
help there too, it seems to me. For the better part of the 
year, Congress worked toward a legislative solution to combat 
patent trolls which has been raised here. I am determined with 
many of my Committee colleagues to make such patent reform a 
priority early this next year.
    Just tell me what you think USPTO's rule should be in this 
process and do you agree that the USPTO does not have subject 
matter expertise or jurisdiction over proposals to reform 
pleading standards, discovery, fee-shifting and recovery of 
awards?
    Ms. Lee. Thank you, Senator Hatch, for your question. By 
statute, the Director of the United States Patent and Trademark 
Office is to advise the President through the Secretary of 
Commerce on Domestic and certain international intellectual 
property matters and policy matters.
    At the request of Members of Congress, we do provide input, 
but that is at the request.
    Senator Hatch. Do you agree that USPTO does not have 
subject matter expertise or jurisdiction over proposals to 
reform pleading standards, discovery, fee-shifting and recovery 
of awards, all legal issues?
    Ms. Lee. We work with our stakeholders, we get their input 
and at your request, we facilitate and help you in your 
efforts.
    Senator Hatch. What are your thoughts about the proposed 
shift from the broadest reasonable interpretation, the BRI, at 
the USPTO's Patent Trial and Appeal Board to a district court 
style claim construction? And I might add, how does changing 
the BRI standard help in combating patent trolls?
    Ms. Lee. Thank you very much for the question, Senator 
Hatch. That was one of the issues that was considered in the 
last round of patent reform discussions and it is the standard 
by which the USPTO interprets the scope of the claims and the 
question is sort of how broad or narrowly--the broader the 
interpretation, the more one can uncover. So again, I think 
this is a very important topic and it is one of the many topics 
that if we move forward in the 114th Congress, which I 
understand that is likely to happen, that we look forward to 
having conversations with our stakeholders about that and with 
all of you and working together with all of you on that.
    Senator Hatch. Well, thank you. In view of the Supreme 
Court's recent decision in Alice Corporation v. CLS Bank 
International, do you know when the USPTO plans to issue 
concrete guidelines to examiners? And as I am sure you can 
appreciate, there is a mounting backlog of applications caused 
by this delay.
    Ms. Lee. Thank you, Senator, for the question. When CLS 
Bank came out around the summertime, we immediately issued some 
preliminary guidance and since then, we have been receiving 
input from the public on that guidance and we are working very 
hard. We have reviewed it and we have updated our guidance, in 
fact, as recently as last Friday, there was a new case law 
development from the Federal Circuit and we have incorporated 
that into our guidance and I am pleased to say that it is 
working its way to the Federal Register notice for publication. 
The public will be able to see it. We look forward to working 
with the public to receive their comments on our updated 
guidance.
    Senator Hatch. Right. Mr. Marti, we congratulate you on 
this as well as Ms. Lee. These are very important positions and 
I look upon them as extremely important, myself.
    Let me just ask you one question. As you may know, there is 
strong bipartisan bicameral support for creating a harmonized 
uniform Federal standard for protecting trade secrets.
    Here in the Senate, Senator Chris Coons and I introduced 
the Defend Trade Secrets Act and in the House, Representative 
George Holding introduced the Trade Secrets Protection Act. Now 
through our collective efforts, we have shed light on an often-
overlooked form of intellectual property.
    If confirmed, we will need your support in pushing this 
critically important legislation forward next Congress. Can I 
count on you to help us do that?
    Mr. Marti. Yes, Senator. As a practitioner in the private 
sector, I appreciate the fact that trade secrets is often 
overlooked. Infringement of any intellectual property, but 
particularly trade secrets, is a threat to dichotomy, the news 
that we have been seeing trickling out, unfortunately it seems 
like week, after week, after week of U.S. innovation being 
stolen is an issue that needs to be addressed and addressed 
aggressively and if confirmed, I look forward to working with 
Congress in an appropriate manner.
    Senator Hatch. Mr. Chairman, if I could just ask a followup 
on that. The lure of advertising revenue continues to fuel 
online piracy across the globe. Now a recent study examined 600 
websites around the world dedicated to the theft of 
intellectual property. The study concluded that the websites 
generated an estimated $227 million per year in advertising 
revenue.
    Now for sometime the International Creativity and Theft 
Prevention Caucus, on which I serve as the Co-Chairman, has 
called on the advertising industry to cutoff these profits and 
cripple the capabilities of these bad actors on the internet.
    Now through voluntary best practices, we have seen progress 
in combating online piracy. Have you given much thought to how 
you might collaborate with industry stakeholders to keep 
advertising dollars off of illegitimate websites?
    Mr. Marti. Yes, thank you, Senator. Companies do not want 
to see their own ads appear on these rogue websites and the ad 
networks do not want to place them there. So it is important 
that we get together will all stakeholders, that includes 
internet companies, the ad networks, the payment processors to 
understand how we can have an effective and meaningful solution 
to make sure that these ads are not placed there in the first 
place.
    The IPEC Office did move forward with voluntary initiatives 
and I think that is an important first step, but there 
certainly are some additional steps to go.
    If confirmed, I look forward to assessing the existing 
voluntary initiatives in this space and bringing these and new 
stakeholders back to the table and see what more can be done to 
ensure that we stamp out payments to these rogue websites.
    Senator Hatch. Well, thanks to both of you and thank you, 
Mr. Chairman. I appreciate that.
    Senator Whitehouse. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to both of you. I am excited for you for your new jobs. It 
could not be more important.
    Senator Franken and I have a State where we have one 
company where we actually have more patents than they have 
employees, that would be 3M. So they have a patent for each 
employee.
    We care a lot about intellectual property. Making things, 
inventing things is one of the reasons that we actually have 
the lowest unemployment rate in our metro area of any metro 
area in the United States. And our unemployment rate for our 
State is down to 3.9 percent. I believe it is really--given 
that we do not have some major energy source, like our 
neighbors in North Dakota--it is a combination of a diverse 
economy but it is also a lot about this idea that you can come 
up with new technology and invent new things and cross new 
frontiers and that is what has made this country's economy 
strong. So that is why I see your jobs as so important.
    Ms. Lee, some of my colleagues have addressed the issue of 
excessive litigation in the patent troll issue. I appreciated 
the work of Senator Leahy on this and I was in the group that 
was trying to craft a bill so that we could go forward. It was 
disappointing to me that we were not able, despite Senator 
Leahy's valiant efforts, to get that done and I hope that we 
are going to get it done in the future.
    Prior to your current service with the Patent and Trademark 
Office, you served as Deputy General Counsel at Google. How did 
that experience inform your outlook on issues faced at the PTO? 
And I think you know that while some patent holders are big 
tech companies like Google, others are industries that are 
smaller and how do you work with some of the other industries 
around besides tech?
    Ms. Lee. Thank you, Senator Klobuchar, for your question. I 
guess I would say that my background and experience is very 
diverse. I have been in the intellectual property field my 
entire career, going on 25 years now. I have worked for a whole 
range of interests. I have asserted patents where a small 
innovator came up with an invention, invested money in it, 
developed a company around it and found a big company 
infringing it. I have represented defendants in patent 
litigation cases. I have bought, licensed, sold and wrote 
patents, so I would like to think that all of those experiences 
through a wide range of industries come to bear and would help 
me do my job if confirmed as director of the USPTO.
    Senator Klobuchar. All right. Thank you. As part of the 
America Invents Act, there is a grace period for public 
disclosure of inventions prior to the filing of a patent 
application. But I know that intervening disclosures by third 
parties can have an impact on the grace period. Do you have any 
comments on the practice and do you see any changes that are 
needed?
    Ms. Lee. It is an issue that we are looking at and that we 
were discussing with our counterparts across overseas as well 
as with our stakeholders. So I think I would like to have 
further conversations on that, but I know it is an important 
issue. If confirmed, I look forward to digging into it more 
deeply and coming up with a sensible proposal.
    Senator Klobuchar. Thank you. I appreciate that. The 
Supreme Court considered a number of different patent cases in 
the last term on issues from fee-shifting to patent eligible 
subject matter. How will these decisions impact your work and 
how is the PTO working to apply the Alice decision and the 
follow-on case in the Federal Circuit, DDR Holdings ?
    Ms. Lee. Yes, the Supreme Court has been very active in 
patent cases, including panel eligible subject matter and we 
have to give guidance to 8000 of our examiners as they examine 
patents on a daily basis. So this is a very real issue for the 
United States Patent and Trademark Office and as soon as that 
one came down from the Supreme Court, we issued preliminary 
guidance. As I had mentioned earlier, we put that out for the 
public comment. We have received those comments. We have 
updated the guidance and I have signed and the public should 
expect to see a Federal Register ``Notice'' on our updated 
guidance on patent eligible subject matter, including on the 
implications of the Alice case. So we look forward to working 
with the public on an ongoing basis to iterate, to get it right 
provided we stay within the confines of the case law and the 
laws of Congress.
    Senator Klobuchar. Okay. That is a good idea. There has 
been a lot of discussion about the backlog of patent 
applications at the PTO. I know that some progress has been 
made. What more can we do to reduce the backlog and do you view 
this issue mostly as an issue of resources and fees or are 
there other things that can be done?
    Ms. Lee. Thank you, Senator Klobuchar, for that question. 
Members of Congress have been good enough with their foresight, 
through their America Invents Act, to give us fee-setting 
authority. So we now are in a position where we get the full 
amount of our estimated fees via appropriations this year and 
hopefully in subsequent years as well. So that has helped 
tremendously.
    What do we intend, if confirmed, to do to reduce the 
backlog further? I will say that, as I mentioned earlier, there 
has been a 20 percent reduction despite a 4 percent year-over-
year increase in filing, but we are hiring additional examiners 
including through our satellite offices. This is the first time 
in U.S. history where we can hire talent outside of the DC area 
and there is lots of technical talent in all of the regions 
where the satellite offices are.
    Senator Klobuchar. Surprise.
    [Laughter.]
    Ms. Lee. So it is a real advantage, I think, for the agency 
in terms of reducing the backlog.
    Senator Klobuchar. I had never thought that through. That 
is a very good idea.
    Ms. Lee. Right. So hiring and being efficient in our 
prosecution and working with our stakeholders, we look to 
further reduce the backlog.
    Senator Klobuchar. And I am just going to leave you with 
one example and you do not have to really respond to it, but 
that I heard at a roundtable I did last year on patent issues 
and trying to get the reform done. This was with patent 
stakeholders in Minnesota and it is about an infusion pump used 
to administer critical medicines to patients, including 
premature babies. The maker of these pumps has been sued by a 
patent troll who is claiming that the infusion pump infringes 
on a fuel delivery system that is intended for tractor-
trailers.
    So I just want to leave you with that. We can send you the 
details, but those are the kinds of things were seeing all of 
the country and whatever ideas you have about how we deal with 
this, I just do not want to slow down what I see as an 
increasing economic boom when it comes to new inventions and 
making things again in America. So thank you very much.
    Senator Whitehouse. Senator Franken.
    Senator Franken. Thank you. I just want to make something 
clear that Senator Klobuchar talked about. 3M does not have a 
patent on each employee.
    [Laughter.]
    Senator Franken. It is not that kind of company. We have 
one for every employee.
    Senator Klobuchar. Good. Thank you for that. I appreciate 
that.
    Senator Franken. You are welcome.
    Senator Klobuchar. And he invented the Post-it Note. No, 
I'm kidding.
    [Laughter.]
    Senator Franken. Well, that is an issue I have with 3M. Mr. 
Marti, congratulations on your nomination. Part of the mission 
of IPEC is to address the problem with counterfeit medicines 
that may enter the US supply chain. This is an area I have 
worked on in the HELP Committee. I helped write a bill on 
compounded medicines. That bill was combined with another bill 
on the drug supply chain, and I was actually proud that we got 
that done in the law.
    Now, counterfeit drugs are those that are produced and sold 
unlawfully with the intent to deceive consumers about the 
drugs' origin, authenticity or effectiveness. These drugs pose 
real health risks. They may be contaminated or contain the 
wrong active ingredient or none at all. They may have the right 
active ingredient but the wrong dose.
    Partly because of the legislation that I mentioned, the FDA 
has been actively working on this issue and drug manufacturers 
and distributors are increasingly investing in countermeasures 
such as authentication technologies to try to minimize the 
impact of counterfeit drugs. Mr. Marti, what do you see as 
IPEC's role and what steps would you anticipate taking on this 
important issue?
    Mr. Marti. Thank you, Senator Franken. I share your view. I 
am troubled by the significant threat that counterfeit 
pharmaceuticals pose to the American consumer.
    Intellectual property theft is troubling, but when it deals 
with issues like pharmaceuticals and frankly, even automotive 
parts, electronics that pose a threat to the health and safety 
of our citizens, more needs to be done. IPEC, I believe, serves 
a very important role to help coordinate these functions. As 
you are aware, my predecessor focused on some voluntary 
initiatives including CSIP, the Center for Safe Internet 
Pharmacies.
    In 2013, CSIP members took down or blocked 5 million sites 
that were violating policies relating to the sale of 
prescription drugs. And more recently, CSIP participated with 
FDA and law enforcement officers to shut down more than 18,000 
illegal pharmacy websites. It is that type of sharing of 
information and coordination across Federal Governments and 
across Federal Agencies that is necessary to combat this 
serious issue.
    Senator Franken. Well speaking of shutting down websites--
this is something maybe we can work together on outside of this 
hearing--we had an attempt a while ago, and it has been 
mentioned here a couple of times, intellectual piracy and we 
have touched on voluntary actions on intellectual property and 
on websites that sell intellectual property. Do you see any 
role, possibly, in again coming back to legislation to do 
something to create some framework to use the law to stop that?
    Mr. Marti. Thank you, Senator. If confirmed, I look forward 
to carrying out the statutory responsibilities at the office 
that is helping to coordinate the effective enforcement of 
intellectual property. That does require a multipronged 
approach and for us to look, as you mentioned, certainly at 
voluntary initiatives but also many other aspects. To the 
extent that there may be additional legislative solutions to 
some of these issues, then I look forward to partnering with 
this Committee and with Congress to do so.
    Senator Franken. I would like to talk to you about that.
    Ms. Lee, also congratulations. You said your goal is to 
reduce the total time that patent applications are pending to 
approximately 21 months by 2018. What are the main steps you 
will take to accomplish that and how will you balance those 
efforts with the important work you have been leading to 
improve quality standards for those examinations?
    Ms. Lee. Thank you, Senator Franken, for the question. We 
will increase our hiring. Last year, we hired 1000 examiners 
and we are projected to hire at least 750 in 2015, including, 
as I had mentioned, through our satellite offices.
    We intend to continue with what we call efficient 
prosecution which is, the examiner identifies all grounds for 
rejection upfront and early so that there can be a more 
informed discussion earlier on. We intend to encourage and 
promote additional interviews between applicants and the office 
to, again, more quickly identify what is the patent eligible 
subject matter and issue the patents more quickly.
    We are also working with our international counterparts on 
worksharing. So there is a lot of redundancy in what the patent 
offices do throughout the world and we are not rubber stamping 
it, but we can certainly benefit by leveraging some of the work 
that they have done and then adding more to it.
    So those are some of the initiatives we have underway and 
if confirmed, I would look forward to continuing and expanding 
to reduce the backlog and pendency.
    Senator Franken. Thank you.
    Senator Whitehouse. Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman and thank 
you for chairing this hearing.
    I never took a patent law course in law school. I remember 
there was one fellow there who was an engineer who said he was 
going into patent law and I had to ask somebody what that 
meant. So I do not profess to be an expert, though I sit on a 
panel that is supposedly charged with the responsibility of 
evaluating and changing, if necessary, the patent law.
    The first round in 2011, when we did the America Invents 
Act, was an eye-opener for me. I went back to my State of 
Illinois, which is very diverse in terms of manufacturers and 
universities and inventors and so forth, and I was determined 
to make sure that whatever I did met with their approval 
because I think it is an important part of the growth of the 
American economy.
    So they proposed a number of amendments to the original 
act. I worked with the Chairman, added those amendments in good 
faith and then proceeded to vote for the bill. They all called 
me and just went ballistic, said why did you vote for that 
bill? And I said it included the changes you wanted. They said, 
but it is a bad bill. It is one of those eye-opening moments 
when you say I wonder if there is a good bill out there 
somewhere.
    The America Invents Act passed. I understand it was the 
first major patent reform in over half a century. I do not know 
if that is accurate, but I will take that at face value. Now a 
few years later, we were asked to amend it again. I stepped 
back and said this time I am going to invite the world to come 
in and tell me what they think about the change. The world 
showed up and told me, for the most part, they thought it was 
unnecessary and premature.
    This morning I received a letter, maybe others did as well, 
from a diverse coalition. This coalition included major 
universities, the Association of American Universities, Public 
and Land-grant Universities, University technology managers, 
American medical colleges, the biotech industry organization, 
the Innovation Alliance, the medical device manufacturers, 
pharmaceutical research and manufacturers, and others signed a 
letter and basically said slow down. Things are changing 
dramatically.
    Let me read one paragraph of that letter. I would like, Ms. 
Lee, if you would respond to it. After summarizing all of the 
things that have occurred over the last 7 years, ``Taken 
together these judicial and administrative developments and the 
plunge in patent litigation rates have fundamentally changed 
the landscape which patent legislation should be considered. As 
Congress considers potential changes to the patent system that 
threaten the constitutionally guaranteed property rights of 
innovators, it must assess the full affects of the AIA, changes 
to the Federal Rules of Civil Procedure's, case law 
developments and administrative developments.'' They are urging 
caution. We are in a time of change, from their point of view. 
Do you agree?
    Ms. Lee. Thank you very much, Senator Durbin, for your 
question. I could not agree more. The patent landscape that we 
are living in, the patent environment is extremely dynamic. 
Probably the issues mentioned in your letter, changes occurring 
in the courts, lots of changes occurring at the U.S. Patent and 
Trademark Office as well.
    We implemented the AIA post-grant review proceedings. They 
are very popular. Stakeholders are filing petitions. So all of 
this needs to be taken into account as we carefully and 
cautiously determine what additional changes need to occur. And 
changes can occur through any number of channels. They can 
occur judiciously, they can occur legislatively and they can 
occur administratively through the Patent Office, through the 
FTC.
    But I look forward to, if confirmed, working together with 
all of the stakeholders and all of the Members of Congress to 
strike that balanced meaningful reform.
    Senator Durbin. Ms. Lee, what is a patent troll? As I go 
around and speak to people involved in this, many people call 
them advocates. Others call them trolls. Some say it is a 
systematic exploitation of our existing system. Others say the 
only way to protect intellectual property is litigation, 
particularly, when it is David versus Goliath. What is your 
definition of patent troll and do you see this as a problem?
    Ms. Lee. So thank you for the question, Senator. I do not 
think it is productive to define patent troll. I think people 
have different definitions. I think the important thing is to 
focus on abusive behavior and work together to find out what we 
can do to curtail abusive behavior.
    Senator Durbin. Do you note the change in patent 
litigation, the rate of patent litigation being filed?
    Ms. Lee. I understand that there is a study that has been 
conducted. It is based upon a limited time period. I think we 
should definitely be keeping our eye on that because as I said, 
the patent landscape is very dynamic. There are lots of changes 
occurring including many at the PTO. So I think we absolutely 
need to keep our eye on this one.
    Senator Durbin. Thank you. Thank you, Mr. Chairman.
    Senator Whitehouse. Ms. Lee, Mr. Marti congratulations on 
your appointments and congratulations on the exemplary 
performance through a tedious hearing of Amanda, Alyssa, and 
Myles. As a parent, I appreciate how well behaved they have 
been through what must be a really tedious time for them.
    We have a number of letters supporting your nominations, 
including for Mr. Marti, letters from the International 
Trademark Association, the Chamber of Commerce, the Copyright 
Alliance, the Motion Picture Association of America, the 
National Music Publishers Association, and the American IP 
Lawyers Association. For Ms. Lee, from the International 
Trademark Association, the American IP Lawyers Association, 
Engine Advocacy, the Asian-Pacific Islander American Chamber of 
Commerce and Entrepreneurship Group and 39 general councils and 
chief legal officers of American companies coordinated through 
the National Asian Pacific American Bar Association as well as 
a group of 220 attorneys, academics and executives in the high-
tech pharmaceutical and biotech and semiconductor fields. So 
without objection, those will all be put into the record.
    [The letters appear as submissions for the record.]
    Senator Whitehouse. Mr. Marti, one of the things about 
being a Senator is you get a 6-year term and you get a certain 
amount of time in. I can remember Ms. Espinel coming here some 
time ago to talk about the progress that she intended to make 
on dealing with the criminal activity that steals American 
intellectual property, particularly entertainment content, and 
provides it to viewers and that they were going to work really 
hard with other American corporations that were supporting that 
activity to try to knock it down.
    So while we were having this hearing, I picked up my iPad 
and I went to Google and I Googled pirate movie and Google gave 
me the Pirate Bay, which is an illegal enterprise operating out 
of Sweden. And if you go to the page where you would get access 
to the pirate content, it says ``Get Access Now'' and 
underneath it you have the flags of Visa, of MasterCard, of 
American Express, of Cirrus and of PayPal. And below that, it 
tells you all of the devices that it works on and shows you the 
logos of Apple, Android and so forth.
    It looks to me like this criminal activity is still being 
wrapped around with the apparent support of a wide variety of 
American corporations. Explain to me how there has been 
progress made.
    Mr. Marti. Thank you, Senator. Criminal actors, criminal 
enterprises have no limit.
    Senator Whitehouse. They actually do. There are ways in 
which these companies could go to court and try to knock this 
stuff down. There are ways in which prosecutors can have 
discussions with companies about aiding and abetting offenses 
and about being accessories to offenses. There is a lot that 
can be done in this area, it seems to me.
    Mr. Marti. Absolutely. I fully agree. What I meant to say 
is that these criminal enterprises will continue to put up some 
sites and wrap themselves with some level of authority by 
putting up some logos of some companies and pretending to be 
something they are not. So it does require a forceful and 
coordinated IP enforcement effort to continue to go after site, 
after site, after site that does engage in criminal activities.
    Senator Whitehouse. You were the former counsel to Google 
in these areas, were you not, Ms. Lee?
    Ms. Lee. I was deputy general counsel and head of patents 
and patent strategy.
    Senator Whitehouse. Does Google have the capability to know 
that it is alerting users to pirate websites and find a way to 
take them down? That would seem to be within its technical 
capacity.
    Ms. Lee. So, Senator I do not know the answer to that 
question. I do not know the answer to that question.
    Senator Whitehouse. You would think that if you guys were 
really pushing this issue very hard she would know the answer 
to that question, having been deputy general counsel to Google. 
So I hope that this effort will get some added momentum.
    There are people whose jobs depend on this and there are 
industries that will succeed or fail based on our ability to 
have the rule of law prevail in this area and the vacancy that 
has existed in this position now for more than a year is not 
your fault, but it is not a signal of great attention. And when 
I am looking at the exact kind of website that Ms. Espinel 
talked about trying to get rid of through a voluntary process, 
it causes me some real concern about whether that voluntary 
process is actually working and getting the attention that it 
deserves.
    Mr. Marti. Senator, progress has been made but there is 
certainly more work to be done and if confirmed, I look forward 
to carrying out the statutory responsibilities of the office. 
Thank you.
    Senator Whitehouse. The last thing that I will mention is 
that we had long conversation about the intellectual property 
theft that was taking place, not so much of entertainment 
content, but of technical specifications, chemical formulas, 
manufacturing processes and so forth, largely China driven. 
That appears to be their policy, to increase their technical 
and manufacturing capacity by stealing from American companies 
largely through a cyber means of access.
    The Department of Justice finally brought an indictment 
against PLA officials and that seems to have had a somewhat 
salutary effect. Would you comment on what you see as the 
effect of the DOJ indictment of the Chinese officials who are 
actively engaged in stealing American intellectual property for 
the purpose of advancing Chinese business interests?
    Mr. Marti. Thank you, Senator Whitehouse. Yes, the theft of 
this type of data, technical know-how, trade secrets undermines 
national security and puts jobs at risk. The IPEC office, under 
statute cannot direct law enforcement action, but certainly can 
help coordinate, bring to light and help share information 
across some Federal Agencies.
    From where I sit in the private sector, I certainly have 
read and spoken to some clients about those indictments. Like 
you, many of them cheered the indictments as showing that the 
U.S. is serious and will not tolerate this type of very 
critical and serious threat. Certainly others in industry show 
some concern that there might be some retaliation when the 
Government takes these actions.
    I trust that the Department of Justice and the Federal 
Government have taken all of these issues into account and felt 
that it was still necessary to call out these bad actors who 
have been engaged in trade secret misappropriation and IP 
theft.
    If confirmed, I look forward to working with those in other 
agencies for an effective IP policy going forward.
    Senator Whitehouse. Good. Well, I wish you both well as you 
go forward. I think it was very good to see bipartisan support 
and you also saw key and substantive interests in the areas 
that you will be entering, so get ready. And we hope that if 
your nominations cannot be cleared in this particular Congress, 
that they will be taken up and rapidly cleared in the Congress 
ahead of us.
    Thank you for your time. The hearing record will stay open 
for 1 week and I wish you both well. Congratulations.
    [Whereupon, at 11:29 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
